<html>
<title> - DEMOCRACY IN AFRICA: THE NEW GENERATION OF AFRICAN LEADERS</title>
<body><pre>[Senate Hearing 105-559]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-559

 
       DEMOCRACY IN AFRICA: THE NEW GENERATION OF AFRICAN LEADERS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 12, 1998

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                    U.S. GOVERNMENT PRINTING OFFICE
48-230 CC                   WASHINGTON : 1998





                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                   JOHN, ASHCROFT, Missouri, Chairman
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
BILL FRIST, Tennessee                PAUL S. SARBANES, Maryland

                                  (ii)

  




                            C O N T E N T S

                              ----------                              
                                                                   Page

Ayittey, Dr. George B.N., Associate Professor, Department of 
  Economics, American University and President of the Free Africa 
  Foundation, Washington, DC.....................................    14
    Prepared statement...........................................    17
Baker, Dr. Pauline, President, the Fund for Peace, Washington, DC    27
    Prepared statement...........................................    30
Booker, Salih, Senior Fellow for Africa Studies, Council on 
  Foreign Relations, Washington, DC..............................    34
Gordon, Dr. David F., Senior Fellow, Overseas Development 
  Council, Washington, DC........................................    38
    Prepared statement...........................................    41
Rice, Hon. Susan E., Assistant Secretary of State for African 
  Affairs, Washington, DC........................................     3
    Prepared statement...........................................     5

                                 (iii)




       DEMOCRACY IN AFRICA: THE NEW GENERATION OF AFRICAN LEADERS

                              ----------                              


                        THURSDAY, MARCH 12, 1998

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:06 p.m. In 
room SD-419, Dirksen Senate Office Building, Hon. John 
Ashcroft, chairman of the subcommittee, presiding.
    Present: Senators Ashcroft and Feingold.
    Senator Ashcroft. The committee will come to order.
    It is my pleasure to convene this hearing on Democracy in 
Africa: The New Generation of African Leaders. This is 
specifically an opportunity to focus on these leaders and their 
policies to either promote or hinder political reform. ``That 
to secure these rights,'' wrote Jefferson, ``governments are 
instituted among men, deriving their just powers from the 
consent of the governed.''
    It may seem odd for some to hear the Declaration read in 
the context of a hearing on Africa. For those who hear mostly 
of violence, bloodshed, and war in reference to Africa, the 
principles of the Declaration might seem inapplicable and alien 
to that troubled continent. Yet, to millions of Africans who 
long to know freedom's embrace, the principles of the 
Declaration are a constant source of hope and a focus of faith 
and devotion.
    Now some analysts have argued that Africa is not ready for 
self-government, that Africa is too poorly educated, too 
ethnically divided, and too economically poor. Upon hearing 
those arguments, I cannot help but think of the harrowing 
journeys and long lines millions of Africans endure just to 
exercise their franchise.
    Casting ballots alone, however, does not a democracy make. 
Many of Africa's leaders have subverted the process of reform 
to maintain their own hold on power. These leaders question the 
feasibility of African democracy and then set about proving 
their own predictions by inciting inter-ethnic violence, 
silencing the press, or robbing their countries.
    But there are also signs of hope. Economic growth appears 
to be taking hold in certain countries. South Africa continues 
to be an example of what can be achieved when political 
leadership is committed to reconciliation.
    The rise of a new generation of African leaders is 
generally viewed as a positive development in Africa. Usually 
comprised of President Laurent Kabila of the Democratic 
Republic of Congo, Vice President Paul Kagame of Rwanda, 
President Yoweri Museveni of Uganda, Prime Minister Meles 
Zenawi of Ethiopia, and President Isaias Afwerki of Eritrea, 
the new generation is best characterized by the pursuit of 
African solutions for African problems--a greater independence 
from the West and a less corrupt administration of their 
countries.
    To varying degrees, the administration views these leaders 
as playing a central role in bringing prosperity to Africa.
    In her recent trip to Africa, Secretary of State Madeleine 
Albright stated that:

    Africa's best new leaders have brought a new spirit of hope 
and accomplishment to their countries and that spirit is 
sweeping across the continent. They know the greatest authority 
any leader can claim is the consent of the governed. They are 
as diverse as the continent itself. But they share a common 
vision of empowerment--for all their citizens, for their 
Nations, and for their continent.

    While Secretary Albright is to be applauded for her efforts 
to increase U.S. engagement in Africa, such effusive statements 
do not correspond to the political realities in the countries 
of these new leaders. Without more cautious pronouncements from 
senior administration officials, I fear we will wake up in 
several years and find a new generation of African leaders has 
become an old generation of African strong men.
    These leaders have done much for their countries, but all 
preside over de facto one-party States which do not allow for 
self-government and have not established mechanisms for the 
peaceful transfer of power. Political oppression, serious 
violations of civil liberties, and a restricted press are all 
elements of life in these countries.
    These leaders certainly have replaced some of the most 
corrupt and brutal governments in Africa. But their commitment 
to genuine political reform and governmental institution 
building still must be proven.
    The position of the United States in defense of democracy 
is less clear when we reverse course and promise to aid the 
Democratic Republic of Congo after President Kabila has 
suppressed opposition groups and undermined the U.N. 
investigation of human rights atrocities. The position of the 
United States is less clear when Angola helps topple the 
democratically elected Government of the Republic of Congo 
without so much as a U.S. sponsored U.N. resolution in 
condemnation.
    Neither the United States nor Africa is served by declaring 
countries success stories before their time. I urge the 
President in his upcoming trip to Africa to clarify U.S. policy 
toward these new leaders who have an opportunity, a unique 
opportunity, to consolidate political reform and set their 
countries on the path to genuine stability.
    It is my pleasure now to call upon Hon. Susan E. Rice, 
Assistant Secretary of State for African Affairs, to provide 
testimony.
    I am delighted to welcome you to the committee again, 
Secretary Rice, and thank you for your willingness to 
participate. I look forward to your contribution.
    Thank you. Secretary Rice.

 STATEMENT OF HON. SUSAN E. RICE, ASSISTANT SECRETARY OF STATE 
              FOR AFRICAN AFFAIRS, WASHINGTON, DC

    Dr. Rice. Thank you very much, Mr. Chairman.
    With your permission, I would like to summarize my 
statement and include it in its entirety in the record.
    I would like to thank you for allowing me the opportunity 
to testify before this subcommittee again on the issue of 
Democracy in Africa. It has been only a few short months since 
I appeared before the subcommittee to outline my vision for a 
new U.S. policy toward Africa, if confirmed as Assistant 
Secretary.
    From the very outset, under President Clinton's leadership, 
we have been steadfast in our pursuit of an aggressive policy 
in support of democracy, political freedom, and human rights on 
the African continent.
    This is a pivotal time in both African and American 
history. Our relationship with the continent is being recast 
from one of indifference or dependency to one of genuine 
partnership based on mutual respect and mutual interest.
    There is a new interest in individual freedom and a 
movement away from repressive, one-party systems. It is with 
this new generation of Africans that we seek a dynamic, long-
term partnership for the 21st Century.
    This partnership is being nurtured by the ascendance of 
democracy and representative governance in Africa. Democracy 
has taken root in many places on the continent, although not 
with the intensity of the pace that some in the United States 
might wish.
    Africa's democratic march has been neither linear nor 
monolithic, but it has registered significant headway.
    In 1989, there were only five African countries that could 
be described as democracies. Today, more than 20 countries have 
governments resulting from elections generally deemed free and 
fair by international observers.
    We can be proud of United States efforts to advance African 
democracy and support free electoral processes. Since 1989, 
with Congress' support, we have invested more than $400 million 
to spark, institutionalize, and then sustain democratic reform 
in Africa. Yet elections are only a match to light the 
democratic flame, a flame that can go out easily if not well 
attended to.
    Thus, the U.S. Government has programs in some 46 African 
countries to consolidate and sustain the gains won through the 
ballot box. Moreover, we have put promotion of democracy and 
respect for human rights at the very top of our public and 
private agendas with our African counterparts.
    In Uganda, we have urged genuine political pluralism and 
systems that incorporate a wider spectrum of political beliefs.
    In Kenya, we have worked with international financial 
institutions and other donors to make assistance contingent 
upon stronger anti-corruption measures. We have also pressed 
repeatedly for an inclusive process of constitutional reform, 
to correct shortcomings in Kenya's democratic framework.
    In Zambia, the United States has made plain that political 
detainees, including Kenneth Kaunda, must be swiftly tried in a 
fair and open process or released. We have also pressed 
repeatedly for the lifting of the state of emergency.
    United States' efforts to bolster respect for human rights 
across the continent include support for legal reform, 
improving administration of justice, and increasing citizens' 
access to legal counsel and due process.
    We are also working actively to empower African women, key 
decision makers in this and the next century.
    In crafting our overall assistance strategy, we take a 
country to country approach. Indeed, each nation on the 
continent is unique in its history, diversity, and culture. 
Many African countries are on a path to participatory 
democracy. However, some are on a rocky one and there have been 
significant setbacks along this route.
    Realizing that achieving full freedom is a continuous 
process, we must stay actively engaged, even in flawed, 
imperfect democracies. Countries struggling against long odds 
to restore peace, stability, and prosperity after years of 
repression need and deserve our encouragement, even for small 
steps in the right direction.
    Wherever possible, we should keep the lines of 
communication open to press for genuine and sustainable 
democracy and respect for human rights.
    In Central Africa, especially, war, genocide, political and 
economic disarray, and resultant refugee flows have destroyed 
social cohesion, weakened the rule of law, and led to massive 
human rights abuses. In this context, we believe support for 
the people of the Democratic Republic of Congo is essential, 
even as the record of the Congolese Government is mixed and 
sometimes worrisome.
    We remain deeply concerned by President Kabila's detention 
of opposition leader Tshisekedi, the detention and harassment 
of journalists, and by the trial of civilians before military 
tribunals.
    Nevertheless, our efforts must be directed at achieving a 
successful transition to a post-Mobutu era in which respect for 
human rights, democracy, and prosperity are assured.
    In addition, we will continue to press hard and loudly for 
a full accounting of human rights violations in the Congo and 
the rest of the Great Lakes region.
    Where repression is endemic, we will meet it with a tough 
and sure response. Last year, we imposed sweeping new economic 
sanctions on Sudan, because of its continued sponsorship of 
international terrorism and its human rights abuses, including 
slavery and religious persecution.
    In Nigeria, we hold General Abacha to his promise to 
undertake a genuine transition to civilian rule this year and 
to establish a level playing field by allowing free political 
activity, providing for an open press, and ending political 
detention.
    Let me state clearly and unequivocally, Mr. Chairman, that 
an electoral victory by any military candidate in the 
forthcoming Presidential elections in Nigeria would be 
unacceptable. Nigeria needs and deserves a real transition to 
democracy and civilian rule.
    As democratization and respect for human rights is 
dependent upon and closely linked to conflict resolution, so, 
too, is economic growth and development necessary to sustain 
African political stability.
    As part of our overall efforts to lift the democratic tide 
in Africa, we support Africa's long overdue integration into 
the global economy. Thus we are pleased that the African Growth 
and Opportunity Act, passed just yesterday by the House of 
Representatives, is an important step forward in this effort.
    We commend Senator Lugar and other co-sponsors for their 
visionary leadership on this issue, and we hope the Senate will 
be able to pass this landmark legislation as soon as possible.
    We also hope the Senate will take another important step to 
brighten Africa's prospects in the 21st century and consider 
the speedy and favorable ratification of the United Nations 
Convention to Combat Desertification.
    This is an issue of particular importance to the African 
continent and especially to the drought prone Sahelian region.
    Mr. Chairman, let me conclude by saying that next week, 
President Clinton, as you know, will embark on an historic six 
nation mission to the African continent, visiting Ghana, 
Uganda, Rwanda, South Africa, Botswana and Senegal. At the very 
top of his agenda will be promoting a partnership with Africa 
for the 21st century, a partnership founded on a common 
commitment to democratic principles and universal respect for 
human rights.
    The President will announce concrete steps to help the 
Great Lakes region succeed in its transition to peace and 
security as well as new initiatives to promote and sustain 
democracy.
    Although President Clinton's visit is a milestone in U.S.-
Africa relations, it must not be viewed as the terminus. We 
must and we will continue our long-term efforts to help 
Africans build a brighter future, not out of altruism alone but 
out of a clear-minded understanding of our mutual interest in 
working together to achieve peace, democracy, and prosperity.
    But let me be very plain: We will never retreat from our 
steadfast support for democratization and universal standards 
of human rights in Africa. The breadth and depth of our 
democracy programs and our diplomacy, starting at the beginning 
of this administration, are testimony to our enduring 
commitment to these principles.
    Although Africans will definitely determine their own 
destiny, the U.S. cannot afford to be a passive bystander in 
their struggles, achievements, and regressions. We need to 
promote policies that foster a level playing field, policies 
based on partnership, not paternalism, and on democratic 
aspirations, not past failures.
    I look forward to working closely with you, Mr. Chairman, 
and other members of this subcommittee as we seek stronger and 
more productive ties between the United States and our African 
partners.
    Thank you.
    [The prepared statement of Dr. Rice follows:]

                  Prepared Statement of Susan E. Rice

    Good afternoon. Thank you for allowing me the opportunity, Mr. 
Chairman, to testify before your distinguished Subcommittee on the 
issue of democracy in Africa. It has only been a few short months since 
I appeared before this Subcommittee to outline my vision for a new U.S. 
policy towards Africa if confirmed as Assistant Secretary. From the 
very outset, under President Clinton's leadership, we have been 
steadfast in our pursuit of an aggressive policy in support of 
democracy, political freedom and human rights on the African continent.
    This is a pivotal time in both African and U.S. history. Our 
relationship with the Continent is being recast from one of 
indifference or dependency to one of genuine partnership based on 
mutual respect and mutual interest. The Africa of today is no longer 
the one of televised images of famine, war, and genocide that poured 
into our living rooms over the past decade. Those images are 
misleading. They are only part of a much greater story--a story of 
change that South Africa's Deputy President Thabo Mbeki has called an 
``African Renaissance.'' There is now an inspired determination--a new 
mind set if you will--among the Continent's citizens to move from 
exclusive to inclusive societies, from dependence to self-reliance, and 
from poverty to prosperity. Africans from all walks of life--scholars, 
teachers and crafts people--are finding strength in unity, dignity in 
debate, and a desire to work for the rights and opportunities they have 
long been denied. From strong women entrepreneurs in Ghana, to 
Congolese civic leaders who have persevered despite 30 years of 
Mobutuism, there is a new interest in individual freedom and a movement 
away from repressive one-party systems. It is with this new generation 
of Africans that we seek a dynamic long-term partnership for the 2lst 
century.
    This new partnership is being nurtured by the ascendance of 
democracy and representative governance in Africa. Democracy has taken 
root in many places on the Continent, although, not with the intensity 
or pace some in the United States might wish. Africa's democratic march 
has been neither linear nor monolithic, but it has registered 
significant headway. In 1989, there were only five African countries 
that could be described as democracies: today more than 20 countries 
have governments resulting from elections deemed generally free and 
fair by international observers. If the 1980's were the time of 
gripping war, devastating famine, apartheid and despotism--the 1990's 
are more a time of opening, of healing, and of slow but pulsing 
progress.
    In this decade, we have witnessed the dramatic end of apartheid in 
South Africa. We saw the conclusion of protracted wars in the Horn of 
Africa and the end of deadly strife in Mozambique, Liberia and, we 
hope, in Angola. In West Africa, Benin embraced multi-party democracy 
and established a vibrant legislature. Mali moved from confrontation to 
consensus-building as the means of bridging differences rooted in the 
past. Ghana formulated a viable constitution and conducted free and 
fair national elections. Ethiopia transitioned from war and years of 
Marxist government to a system of government that is a work in 
progress, but a far cry from the days of the Derg. Indeed, democratic 
institutions--however fragile and imperfect--form the basis for 
governance in most nations in Sub-Saharan Africa.
    We can be proud of U.S. efforts to advance African democracy and 
support free electoral processes. Since 1989, we have invested more 
than $400 million to spark, institutionalize and then sustain 
democratic reform. In South Africa, the U.S. government provided 
substantial assistance to the new Government of National Unity. In 
Ghana, we trained 4,500 electoral observers and helped with a 
comprehensive voter registration effort for the 1996 national and then 
1997 local elections. We provided electoral assistance to Mozambique--
training 52,400 election officers and 32,000 political party poll 
watchers and deploying them to over 7,000 voting locations. We provided 
Zambians assistance with elections in 1994, supported Tanzanians in 
their first multiparty contest in 1995, and aided Ugandans with the 
establishment of a Constitutional Assembly. Proving that democracy has 
a firm and growing hold in Southern Africa, we returned to assist 
Namibia with its second-round of democratic national elections in 1994.
    Yet elections are only a match to light the democratic flame--a 
flame that can easily go out if not tended. Thus, the U.S. government 
has programs in 46 African countries to consolidate and sustain the 
gains won through the ballot box. In post election Malawi, for example, 
we provided training and assistance to strengthen the parliament, 
modernize the judiciary and enhance the election commission. Since 
then, Malawi's parliament has passed constitutional safeguards on human 
rights and enacted anti-corruption legislation. In post-apartheid South 
Africa, we have supported the drafting of a progressive new 
constitution and have assisted the remarkable Truth and Reconciliation 
Commission process. To deal with threats to its young democracy, we are 
also helping South African law enforcement authorities fight rising 
crime in the country's growing cities.
    To be clear, we have gone well past the point of merely funding 
national elections. We are providing support to build strong 
institutions and vibrant civil societies. In Kenya, we support a wide 
range of pro-democracy groups that press for institutionalized 
constitutional reform. We also sponsor regional programs to consolidate 
democratic norms and increase networking and human rights advocacy 
across Southern Africa. In Rwanda, we provided equipment to the Rwandan 
Association of Journalists to strengthen the media's independence and 
role in civil society. To foster a viable legislative branch, we have 
provided training and simultaneous translation equipment to Rwanda's 
nascent parliament. In Ethiopia--a country synonymous with famine just 
a decade ago--this Administration has supported not only elections, but 
decentralization, civil service reform and constitutional drafting.
    Moreover, we have put promotion of democracy and respect for human 
rights at the very top of our public and private agendas with our 
African counterparts. We constantly engage African leaders on issues of 
political reform and good governance, on the need for effective anti-
corruption efforts, and on the critical importance of the rule of law 
and a predictable regulatory environment. In Uganda, we have urged 
genuine political pluralism and systems that incorporate a wider 
spectrum of political beliefs. In Kenya, we have worked with 
international financial institutions and other donors to make 
assistance contingent upon stronger anti-corruption measures. We also 
have pressed repeatedly for an inclusive process of constitutional 
reform to correct short-comings in Kenya's democratic framework. In 
Zambia, the U.S. has made plain that political detainees--including 
Kenneth Kaunda--must be swiftly tried in a fair and open process or 
released. We have pressed repeatedly for the lifting of the State of 
Emergency.
    The United States' efforts to bolster respect for human rights 
across the Continent include support for legal reform, improving 
administration justice, and increasing citizens' access to legal 
counsel and due process. In this area, we are plowing new ground. The 
United States has strongly supported the International War Crimes 
Tribunal for Rwanda and human rights field monitors in Rwanda and 
Burundi. In Liberia, U.S. assistance helped launch the new Liberian 
Human Rights Center, and this year it will fund that Center's outreach 
programs country-wide. In Uganda, we support the Ugandan Law Reform 
Commission, which is compiling all existing statutes and regulations to 
allow access to legal information for all Ugandans.
    We are working actively to empower African women--key decision 
makers in this and the next century. U.S. supported-NGOs provide legal 
assistance and advice to women in Tanzania; and in Mali, where we fund 
civic and voter education programs, we will expand women's rights 
training programs nation-wide. In Botswana, we have supported 
grassroots NGOs that ensure human rights protection for women, children 
and minorities. We work with the Malawian and the Namibian women's 
caucuses to help them represent the needs of women by reviewing 
legislation for gender sensitivity, forging cooperation across party 
lines, and launching human rights awareness campaigns focused on the 
rights of women and children in the region.
    In crafting our overall assistance strategy, we take a country-to-
country approach. Indeed, each nation on the Continent is unique in its 
history, diversity and culture. Many African countries are on a path to 
participatory democracy--however, some are on a rocky one and there 
have been significant setbacks along this route. Nascent democracies in 
Sierra Leone and Congo-Brazzaville were toppled in violent take-overs. 
Political competition and freedom of the press have been stifled in 
many African nations. The Democratic Republic of the Congo will 
continue to suffer from the effects of armed conflict and decades of 
internal repression for years to come.
    Realizing that achieving full freedom is a continuous process, we 
must stay actively engaged even in flawed, imperfect democracies. 
Countries struggling against long-odds to restore peace, stability and 
prosperity after years of repression need and deserve our encouragement 
for even small steps in the right direction. Wherever possible, we 
should keep the lines of communication open to press for genuine and 
sustainable democracy and respect for human rights.
    In Central Africa especially, war, genocide, political and economic 
disarray, and resultant refugee flows have destroyed social cohesion, 
weakened the rule of law, and led to massive human rights abuses. 
During Secretary Albright's recent visit to Africa, she announced the 
launching of a Great Lakes Justice Initiative--an effort designed to 
assist the states of the region to strengthen justice and respect for 
the rule of law, so as to help break the cycle of violence and 
impunity. We will be working actively and in partnership with the 
governments in the region in developing this initiative. The Secretary 
also pressed publicly and privately for concrete steps to ease ethnic 
tensions, ensure inclusive government and stop human rights abuses. She 
stressed the importance of the huge centrally-located African nation of 
Congo to regional security and emphasized our support for the Congolese 
people who suffered so much under the misrule of Mobutu.
    We believe support for the people of Congo is essential even as the 
record of the Congolese government is mixed and sometimes worrisome. We 
remain deeply concerned by President Kabila's detention of opposition 
leader Etienne Tshisekedi, the detention and harassment of journalists, 
and by the trial of civilians before military tribunals. Working with 
the friends of Congo and bilaterally, our efforts must be directed at 
achieving a successful transition to a post-Mobutu era in which respect 
for human rights, democracy and prosperity are assured. In addition, we 
will continue to press hard and loudly for a full accounting of human 
rights violations in the Congo and the rest of the Great Lakes Region. 
We must nurture latent democratic processes, promote economic growth, 
and foster reconciliation throughout the region.
    Where repression is endemic, we will meet it with a tough and sure 
response. Late last year, we imposed sweeping new economic sanctions 
against the government of Sudan because of its continued sponsorship of 
international terrorism and its human rights abuses, including slavery 
and religious persecution. In Nigeria, we hold General Abacha to his 
promise to undertake a genuine transition to civilian rule this year 
and to establish a level playing field by allowing free political 
activity, providing for an open press and ending political detention. 
Let me state clearly and unequivocally to you today that an electoral 
victory by any military candidate in the forthcoming presidential 
elections would be unacceptable. Nigeria needs and deserves a real 
transition to democracy and civilian rule.
    Throughout Africa, the Administration complements its hands-on 
support for grassroots democracy by helping African countries prevent, 
resolve and recover from conflict. U.S. leadership and resources were 
instrumental in bringing an end to the wars in Mozambique and Angola. 
Our diplomats are actively engaged in Burundi to help forge a peaceful 
resolution to the persistent conflict there. We have provided more than 
$90 million to the West African peacekeeping force, ECOMOG, in order to 
bring peace to Liberia, and we are the largest investor in developing 
the OAU's Conflict Management Center. In addition, we have launched an 
African Crisis Response Initiative (ACRI) to enhance the capacity of 
African nations to respond to humanitarian crises and peacekeeping 
challenges.
    As democratization and respect for human rights is dependent upon, 
and closely linked to, conflict resolution so too is economic growth 
and development necessary to sustain African political stability. Thus, 
as part of our overall efforts to lift the democratic tide in Africa, 
we support Africa's long-overdue integration into the global economy. 
Trade, investment, assistance and debt relief will nurture Africa's 
budding democracies and help relieve the endemic poverty that plagues 
Africa--poverty that spurs unrest and insecurity. Through President 
Clinton's Partnership for Economic Growth and Opportunity and 
legislation now pending before Congress--the African Growth and 
Opportunity Act--we are committed to helping countries that undertake 
dynamic economic reforms reap the additional benefits of increased 
access to U.S. markets. We are pleased that the African Growth and 
Opportunity Act passed the House yesterday. We commend Senator Lugar 
and other co-sponsors for their leadership on this issue and hope the 
Senate will be able to pass this legislation as soon as possible.
    We also hope the Senate will take another important step to help 
brighten Africa's prospects in the 21st century--the ratification of 
the United Nations Convention to Combat Desertification. This is an 
issue of particular importance to the African continent, and especially 
to the drought-prone Sahelian region.
    Next week, President Clinton will embark on an historic six-nation 
mission to the African continent--visiting Ghana, Uganda, Rwanda, South 
Africa, Botswana and Senegal. At the top of his agenda will be 
promoting a partnership with Africa for the 21st century--a partnership 
founded on a common commitment to democratic principles and universal 
respect for human rights. The President will announce concrete steps to 
help the Great Lakes Region succeed in its transition to peace and 
stability, as well as new initiatives to promote and sustain democracy. 
Although President Clinton's visit is a milestone in U.S.-Africa 
relations, it must not be viewed as an end-zone. We must and we will 
continue our long-term efforts to help Africans build a brighter 
future--not out of altruism alone--but out of a clear-minded 
understanding of our mutual interest in working together to achieve 
peace, democracy and prosperity.
    Mr. Chairman, let me be very plain: we will never retreat from our 
steadfast support for democratization and universal standards of human 
rights in Africa. The breadth and depth of our democracy programs and 
diplomacy starting at the beginning of this administration are 
testimony to our enduring commitment to these principles. Although 
Africans will determine their own destiny, the U.S. cannot afford to be 
a passive bystander in their struggles, achievements and regressions. 
We need to create policies that foster a level playing field--policies 
based on partnership, not paternalism, and on democratic aspirations, 
not past failures. I look forward to working closely and constructively 
with you and other members of this Subcommittee as we seek stronger and 
more productive ties between the United States and its African 
partners. Thank you.

    Senator Ashcroft. Thank you, Secretary Rice.
    If you would be available to answer a few questions, I 
would be grateful.
    Dr. Rice. As always.
    Senator Ashcroft. Thank you.
    How important a factor are these new leaders from Uganda, 
Rwanda, Eritrea, Ethiopia, and the Democratic Republic of Congo 
for the administration as U.S. Africa policy is being 
formulated? What role do they have with respect to U.S. policy 
in Africa? Do they have a role of influence outside their own 
borders?
    Dr. Rice. Mr. Chairman, let me begin by saying that I think 
the term ``new leaders'' has taken on several connotations that 
are not what we intended when we used that term.
    When we talk about ``new leaders,'' we mean a group of 
individuals as diverse as President Konare of Mali, President 
Mkapa of Tanzania, and Deputy President Thabo Mbeki of South 
Africa, among others.
    We are pointing to individuals who are committed to finding 
new solutions to problems in Africa, who have a vision for 
Africa that is inclusive, that is forward looking, that is 
self-reliant, in which the citizens of their countries enjoy 
prosperity, are not burdened by corruption, and have an 
opportunity to express their will freely and in an environment 
where their basic human rights will be respected.
    Now as for the countries you pointed to, some of them have 
visionary, relatively new leaders, and we have worked closely 
with them on issues of mutual interest. We see them as playing 
an important role in several respects.
    Let me mention in particular in this regard Prime Minister 
Meles of Ethiopia, President Isaias of Eritrea, and President 
Museveni of Uganda. These leaders have come together with a 
vision for not only Eastern and Central Africa, but the 
continent as a whole, that we largely support. It is a vision 
of self reliance, of sustained economic growth and prosperity, 
and of a sustainable form of democracy that takes into account 
the particular histories of individual countries but does not 
compromise on fundamental principles of respect for human 
rights.
    But they come from countries that have emerged from 
conflict, conflicts that have been deadly and, in many cases, 
long-lasting. Their progress thus far has been laudable, but 
the results are not perfect. We think in many respects there is 
a long way to go in a number of countries in Africa when it 
comes to democracy as we know it and respect for human rights. 
But we think it is important that, where there is positive 
progress and the proper motivation, the United States step in 
to try to accelerate the achievement of lasting democracy and 
respect for human rights.
    Senator Ashcroft. When you say you take into account 
individual histories, what factors in the history of a country 
are considered in terms of affecting what kind of expectation, 
is held for democratic reform in that country? Would you give 
some examples of that.
    Dr. Rice. Let me take an extreme example but an important 
one--and that is Rwanda--which has suffered recurrent genocide 
over many years but, most recently, obviously, the tragic 
genocide of 1994. That is a country that has been torn asunder 
by ethnic violence, by long-standing economic competition, and 
by a history of colonialism which, in fact, has been very 
pernicious in that particular context.
    In that light, while we certainly insist upon the need for 
respect for human rights and for an inclusive political system, 
it is hard to imagine that an overnight transformation to a 
multiparty democracy will be sustainable and can happen without 
great bloodshed.
    So we think it is very important that Rwanda, as well as 
other countries, move in that direction; but they have to do so 
in a way that takes account of their particular histories and 
experiences so that the democracy that emerges ultimately can 
be sustained.
    Senator Ashcroft. In which areas are the new leaders likely 
to cooperate with each other and in which areas are their 
policy objectives likely to diverge?
    Dr. Rice. I think the area of greatest convergence is 
probably in the security realm, particularly if you are talking 
about those new leaders in the Central and East African region. 
There they have come together to try to counter a common threat 
from the Government of Sudan, which has exported terrorism not 
only far afield abroad but also most directly in the 
neighboring countries.
    As you know, they are cooperating in an effort to try to 
bring about change in the government in Sudan.
    They also came together when they perceived the common 
threat that Mobutu's Zaire posed. While we had urged and would 
much have preferred a negotiated solution to the conflict in 
Zaire, the leaders of the region determined that it was in 
their mutual interest to try to end the security threats posed 
by the refugee camps in Eastern Zaire and to bring a halt to 
Mobutu's 30 years of destabilizing his neighbors.
    Their interests may diverge when it comes to the path they 
take to democratization and to the degree that they are able to 
achieve in the near-term what we would call full and universal 
respect for human rights.
    Let me just finally say that another area of convergence 
is, I think, a mutual aspiration for economic prosperity, a 
relative commitment to end corruption, and a desire to form 
economic partnerships and regional integration that might 
sustain otherwise fairly fragile economies in a regional 
cooperative fashion and bring prosperity to their people.
    Senator Ashcroft. I want to thank you for taking your time, 
Secretary Rice, to come and make a presentation to the 
committee.
    The Senate is in the midst of a vote. It is my habit to 
vote with the Senate during the time interval allowed. So I beg 
the indulgence and tolerance of those of you who are interested 
individuals who have come here and those who have come to make 
presentations.
    It is my decision now to recess the subcommittee for about 
15 minutes while I go and vote in accordance with my 
responsibilities.
    [Recess]
    Senator Ashcroft. It is my pleasure to reconvene the 
subcommittee meeting and to thank you all for your patience 
during this time when you were required to stay so that I might 
have the opportunity to vote.
    It is my pleasure now to call upon the Senator from 
Wisconsin, Senator Feingold, for either remarks or questions, 
whatever he chooses.
    Senator Feingold. Thank you, Mr. Chairman. I apologize for 
not being able to be here at the beginning. We have four or 
five different things going on at once, as so often happens 
here, and I apologize.
    I thank Secretary Rice for waiting for a while so that I 
could ask her some questions. I will make a statement later.
    One thing I wanted to ask you, Madam Secretary, is how does 
the administration assess the record of African leaders, in 
particular, in holding their militaries accountable for 
observing international humanitarian law and, in general, how 
can this country encourage civilian control of the military in 
some of these key African countries?
    Dr. Rice. Senator, I think the record of African 
governments in that regard is mixed. Those that are on the path 
to democracy and respect for human rights have generally done a 
fairly good job. Even in some countries where the leadership of 
the country may have come to power by military means, there is 
a fair degree of control of the military.
    But this is a persistent problem in a number of places; and 
there are a number of countries, as you well know, where 
civilian control of the military is weak, at best.
    In my opinion, one of the best things that we can do in 
this regard is to continue our efforts to help professionalize 
African militaries, particularly through IMET programs and 
particularly through expanded IMET, which is targeted at human 
rights training and training of a responsible officer corps 
that is responsible to civilian control.
    Senator Feingold. Thank you.
    I would now like to ask a few questions about the 
President's upcoming trip to Africa. I am delighted. This is 
something that I have mentioned at many hearings over the years 
and was extremely pleased to see the Secretary of State make 
the effort and spend substantial time in Africa.
    I guess you have outlined some of the goals of the trip. 
But I would like to ask you about some of the details if you 
are able to discuss them.
    To what extent is the President planning to meet with 
nongovernmental voices, such as opposition leaders, 
journalists, women's groups, and the like?
    Dr. Rice. To the extent possible in what, as you can 
imagine, is a very tight schedule, he will try to make 
opportunity to do just that. We expect that in at least one 
location he will have a meeting with civil society leaders 
from, we hope, a variety of countries in Africa to talk about 
their experiences, to hear their concerns, and to show that the 
United States is committed to the promotion and sustainment of 
civil society.
    In various countries he will also have the opportunity to 
see some opposition leaders. Some of that will be in the 
context of larger meetings or in social contexts. He may also 
have a meeting here and there with individual opposition 
leaders. That has been an important consideration in putting 
together the trip and, to the greatest extent possible, we have 
tried to factor that in.
    Senator Feingold. I appreciate that.
    How will the President respond to the inevitable questions 
he will get about our Nigeria policy?
    Dr. Rice. Senator, as you well know, we have been in a 
long, drawn-out process of looking at our Nigeria policy. That 
process I hope will soon be coming to a conclusion. It 
certainly has accelerated in the last several weeks.
    As I said in my opening statement, we will hold Nigeria and 
General Abacha to his own stated commitment to effect a 
transition to civilian democratic rule this year. Were he not 
to do that, and were a military candidate of any stripe to 
emerge victorious from that election, we would consider that 
unacceptable. Obviously, as we finalize our policy review, we 
will be looking very much forward to consultations with you, 
the Chairman, and others about that policy and seek your 
guidance.
    But soon thereafter we want to begin the process of talking 
to key allies and partners in Africa to consider what steps we 
might take in response to various possible outcomes in Nigeria.
    Senator Feingold. I appreciate hearing that. Let me 
respectfully suggest that perhaps the President, when he is in 
Africa, could express some of the points that you just made, if 
that is something you could suggest to him that he do.
    Which African heads of State will join the President at the 
regional summit in Uganda? What is the rationale in picking 
which leaders would be involved?
    Dr. Rice. I think the final list of participants has not 
been finally determined. But there will be leaders from East 
and Central Africa. I can name a few if that is useful, but I 
do not want to leave you with the impression that it is a 
finite set, necessarily.
    At this point we expect Prime Minister Meles of Ethiopia to 
be there, obviously President Museveni, President Mkapa, 
President Moi of Kenya, President Bizimungu of Rwanda, and 
President Kabila of former Zaire, now Congo.
    Senator Feingold. Thank you.
    With regard to the role of Reverend Jesse Jackson as a 
Special Envoy for Democracy and Governance in Africa, could you 
say a little bit about his role in helping to shape U.S. Africa 
policy and how do you think his efforts have gone?
    Dr. Rice. Reverend Jackson is playing a unique, but very 
valuable role. His role focuses on the democracy side of our 
policy, which is a very fundamental element of the overall 
policy toward Africa. He has a limited amount of time (60 days 
per calendar year) by government regulation that he can spend 
on Africa policy in his informal status.
    So we are trying to use his time in a targeted and 
effective fashion.
    He has, for the most part, been used as a trouble shooter. 
He has been dispatched twice to Kenya, once to the Democratic 
Republic of Congo, where his mission was to primarily 
underscore that our interest in the Congo was not in any 
particular leader or any government but in the long-term 
transformation of that country. Therefore, he met with a broad 
variety of opposition leaders as well as with civil society. 
Unfortunately, he did not have the opportunity to meet with 
President Kabila, which had been his intention.
    He has also spent time in Liberia and Zambia.
    I hope and expect that he will make similar missions in the 
future, both when there are troubles on the horizon that fall 
into the category of democratization, where he may be able to 
lend the voice and weight of the U.S. Government, but also 
where there are opportunities.
    Senator Feingold. Let me be clear that I am enthusiastic 
about his involvement in this. I think he can contribute a 
great deal.
    Mr. Chairman, I have just one more question following on 
that about the incident you alluded to in Congo where, as I 
understand it, the last minute there was a decision by 
President Kabila not to meet with Reverend Jackson.
    Does this represent a rift in our United States-Congo 
relations? As I understand it, it had something to do with 
Reverend Jackson's meeting with opposition leader Etienne 
Tshisekedi. Does this threaten at all Reverend Jackson's 
ability to perform his duties in other countries?
    Dr. Rice. I would not say it represents a rift, and I 
certainly do not think it affects his ability to perform his 
duties in other countries.
    I think it was an unfortunate decision by the Government of 
Congo to decide at the last minute not to see Reverend Jackson. 
We don't know precisely why they made that decision, although 
there are some indications that it may have been out of pique 
that he had met with opposition leaders prior to meeting with 
the President.
    We think that was a missed opportunity and an unfortunate 
incident. It is reflective of a pattern of behavior that is a 
little bit erratic and sometimes worrisome, as I said in my 
testimony.
    But, having said that, I think our challenge with respect 
to the Congo is much broader than President Kabila or any 
individual leader or party. It is a huge country in the heart 
of Africa whose future will affect the fate of all of Central 
and Southern Africa.
    So our interest is in trying to intersect with this window 
of opportunity, this post-Mobutu era, and to try, as best we 
can, with others in the international community in the region 
to encourage the Congo to achieve its potential, to ultimately 
achieve democracy, full respect for human rights, and economic 
prosperity.
    If we succeed, the benefits for all of Africa are 
substantial. If Congo fails, the ramifications for the region 
could be dire.
    Senator Feingold. I appreciate your comments about Congo. 
Let me just be absolutely clear. I think President Kabila 
should have met with Reverend Jackson, and this was not a good 
reason not to meet with him. I don't want anybody to interpret 
my remarks as a criticism of Reverend Jackson. I am pleased 
that he attempted to meet with President Kabila.
    Thank you very much, Madam Secretary.
    Thank you, Mr. Chairman.
    Dr. Rice. Thank you.
    Senator Ashcroft. Let me thank the Assistant Secretary for 
coming and for spending the time that she did. Also, thank you 
for waiting while it was necessary for us to be absent in order 
to vote.
    We thank you for your cooperation with the subcommittee and 
look forward to working with you further.
    Dr. Rice. Thank you very much, Mr. Chairman.

  Response of Assistant Secretary Rice to a Further Question for the 
                 Record Submitted by Senator Brownback

    Question. What is this administration's plan to engage in a 
constructive dialogue to promote free and fair elections this August in 
Nigeria?
    Answer. The upcoming election is an opportunity for Nigeria to 
advance democracy in Africa and take a large step toward realizing its 
vast potential for leadership on the continent.
    We have publicly and privately let Nigerian officials know the 
criteria we believe necessary for a free and fair election: release of 
political prisoners, a contest open to all legitimate candidates, 
parties allowed to organize and select viable candidates, candidates 
and parties free to campaign throughout the country, the press free to 
report on the process without fear of harassment or suppression, and 
equal access to state-owned media by all candidates.
    We are concerned about the direction the transition appears to be 
taking. If steps are, not taken to create more political space, we 
believe the transition will not lead to a credible civilian government 
and the realization of Nigeria's potential for enormous good on the 
continent.

    Senator Ashcroft. It is now my pleasure to call upon the 
next panel of witnesses: Dr. George Ayittey, Associate 
Professor at American University; Dr. Pauline Baker, President 
of the Fund for Peace; Mr. Salih Booker, Senior Fellow for 
Africa Studies at the Council on Foreign Relations, and Dr. 
David Gordon, Senior Fellow at the Overseas Development 
Council.
    Dr. George B. N. Ayittey is Associate Professor of 
Economics at the American University and President of the Free 
Africa Foundation, Washington, DC.
    Dr. Ayittey, I am honored that you would be here to make a 
presentation to the subcommittee. I welcome your contribution. 
If you can, try to limit your opening remarks to about five 
minutes. We have 65 minutes in which to complete this hearing 
and at some time I think the Ranking Member of the subcommittee 
wants to make a statement of his own.
    With that in mind, I welcome you and thank you for your 
willingness to help us. We look forward to hearing your remarks 
and asking you questions.

  STATEMENT OF DR. GEORGE B.N. AYITTEY, ASSOCIATE PROFESSOR, 
 DEPARTMENT OF ECONOMICS, AMERICAN UNIVERSITY AND PRESIDENT OF 
          THE FREE AFRICA FOUNDATION, WASHINGTON, DC.

    Dr. Ayittey.  Thank you, Mr. Chairman. I have a longer 
prepared statement, but I would hope to summarize it within the 
timeframe that you indicated.
    I would like to than you for this opportunity to testify 
before this Subcommittee on Africa. As I understand it, the 
purpose of this hearing is to determine the prospects for 
democracy and of the new leaders, the new African leaders, and 
how the U.S. should interact and help them. Specifically, the 
new leaders comprise the following: Presidents Museveni of 
Uganda, Paul Kagame of Rwanda, Meles Zenawi of Ethiopia, Isaias 
Afwerki of Eritrea, and Laurent Kabila of the Congo.
    Mr. Chairman, these leaders share certain characteristics. 
They all have a military background and they have all 
successfully waged recently a guerrilla campaign to remove 
corrupt and tyrannical regimes from power. They have inherited 
shattered economies, collapsed infrastructure, and, therefore, 
they are in the process of rebuilding their countries.
    We all know about the 1994 Rwanda massacre in which more 
than 700,000 Tutsis were slaughtered. Paul Kagame faces a very 
formidable task of healing ethnic wounds in Rwanda and also 
rebuilding the country.
    Senator Ashcroft. Doctor, would you please bring the 
microphone closer to you so that we can all hear.
    I am not sure about the audience. Can you hear him in the 
back of the room?
    I see that they are having trouble. They would like to hear 
you. I am sorry that I did not ask you to do this sooner. So 
please project your voice right into the microphone.
    Dr. Ayittey.  OK.
    In the Democratic Republic of Congo before a collapse in 
October, 1996, after 32 years of misrule by the late Mobutu 
Sese Seko, there, too, we have had government structures which 
have collapsed, the infrastructure has crumbled, roads have 
completely disintegrated, and there is a formidable task of 
also rebuilding this country.
    Now there is also a similar situation that we have in 
Ethiopia and also in Eritrea. These new leaders need all the 
help that they can get. I believe that the U.S. should help 
them in whatever way it can.
    I am heartened to note that the Clinton administration is 
paying more attention to Africa, especially the Central African 
region, because after a period of abandonment and benign 
neglect, as an African, it seems to me that the administration 
is now placing Africa on the front burner.
    Since 1995, the White House has held a series of high level 
conferences on Africa and sent senior administration officials 
on various African tours. The former Secretary of State, Warren 
Christopher, was in Africa in 1996 to promote the African 
Crisis Response Initiative. This was also followed by the First 
Lady, Hillary Clinton, and Chelsea visiting Africa in 1997. 
Also this was followed by Madeleine Albright who was in Africa 
last October. Of course, we know that this month President 
Clinton will be going to Africa.
    Also, this week, yesterday, the Congress passed the African 
Growth and Employment Initiative Act.
    Mr. Chairman, there are bound to be differences of opinion 
in regard to how best the U.S. can help Africa. I am sure you 
have heard some lament in some quarters that the U.S. is not 
doing enough to help Africa or that the help must be coupled 
with some substantial debt cancellation.
    In my opinion, however, the issue is not so much whether 
the U.S. should help Africa or not. I think, rather, what the 
issue is is helping Africa effectively.
    This is because since 1990, more than $400 billion in 
various Western aid and credits have been pumped into Africa 
with very negligible results. Somalia is a case in point where 
in 1993, it cost the international community $3.5 billion in a 
humanitarian mission. Somalia represents a case where quite 
often the U.S. wades into a complex African situation without 
understanding the causes of the crisis and then withdraws when 
the going gets tough.
    Nor is the issue whether there are any success stories in 
Africa. There are. But these success stories are few.
    Economically, the continent of Africa is making some very, 
very painful progress. Politically, we find some serious 
setbacks in the democratization process.
    Right now, we have had the number of democracies in Africa 
increase from 4 in 1990 to a figure like 15 today. These series 
of races occurred, some of them occurred last year, when 
democratically elected governments in Congo and also in Sierra 
Leone were removed by military soldiers.
    Clearly, more needs to be done to help Africa, the new 
leaders in Africa, in their efforts to democratize Africa. But 
I believe that consistency in substance should be the 
overarching tenets of U.S. efforts to promote democracy.
    It is true that the Clinton administration is doing far 
more than its predecessor governments. But the objectives right 
now are muddled and the signals that we are getting from the 
administration are confusing.
    You may remember that after Madeleine Albright returned 
from Africa there was some talk among the administration 
officials that Africa needs stability and not democracy. Also 
very disturbing was the administration's response to the recent 
setbacks in the African democratization process, which has been 
muted and rather disappointing. The administration's policy on 
Nigeria seems to be in total disarray, although today we heard 
from the Assistant Secretary of State, Susan Rice, that there 
might be a new policy in the offing.
    Mr. Chairman, the issue is not so much what the policy 
should be but, rather, the approach to African problems and 
efforts to promote democracy.
    When I hear the term ``new leaders,'' it sort of conjures 
up some eerie reminiscences to the cold war, because the 
mistake that was made during that particular period was to 
emphasize, to place so much faith in the leadership rather than 
in institutions.
    I believe that there ought to be a shift. It is not so much 
what these new leaders say or what they profess their 
commitments to be but, rather, the institutions.
    Mr. Chairman, let me say that we cannot build democracy in 
Africa without having in place the supporting institutions. 
These supporting institutions are not that many. There are only 
five of them. If I may relate them to you: first we need to 
have an independent judiciary in Africa. That independent 
judiciary is the only institution which can effectively insure 
that we have rule of law in Africa.
    We also need to have an independent media. We also need to 
have an independent central bank, and we also need to have a 
neutral and professional armed forces or security forces.
    Now if you look across Africa, in the cases of the recent 
implosions in Ethiopia, Somalia, Rwanda, Liberia, and Sierra 
Leone, all these countries blew up under military regimes 
simply because the military has not been a professional force 
in Africa. In fact, they have been the most destabilizing force 
in Africa.
    I would like also to point out to you that there is one 
solution to all these crises in Africa. All these countries 
have been blowing up simply because of one particular factor 
and that factor is power. Power in Africa is the root cause of 
all these implosions.
    The reason is that political power in Africa has become the 
passport to great personal wealth. Almost all the richest 
people in Africa are heads of State and ministers. Therefore, 
when you talk about government in Africa, government is not 
what you and I understand it as here in the West. Government, 
as you and I understand it, does not exist in many parts of 
Africa. What you have in many African countries is a Mafia 
State and that is government which has been hijacked by 
gangsters. They use the instruments of government power to 
enrich themselves and exclude everybody else.
    Therefore, the problem that we have in many African 
countries is the practice of politics of exclusion.
    Now those who have been excluded from power have two 
options which are to rise up and overthrow the ruling elites or 
to secede. These have been the seeds of instability in Africa.
    Mr. Chairman, we have a solution in Africa and that 
solution has been tried and worked successfully in Benin and 
South Africa. That solution is called a Sovereign National 
Conference.
    This is what the South Africans, the blacks and whites in 
South Africa, were able to do to have a democratic dispensation 
for their country. It also worked in Benin. And, therefore, to 
conclude my testimony, I will urge you that in the future it is 
not what the new leaders tell us but, rather, the institutions 
that they establish in Africa. These institutions, we know what 
they are--the Sovereign National Conference, an independent 
judiciary, an independent media, a professional and neutral 
force. This is what I believe U.S. aid should be tied to.
    Thank you.
    [The prepared statement of Dr. Ayittey follows:]

          Prepared Statement of George B.N. Ayittey, Ph.D. \1\

---------------------------------------------------------------------------

    \1\ The author, a native of Ghana, is an Associate Professor of 
Economics at The American University and president of The Free Africa 
Foundation, both in Washington. He is the author of Indigenous African 
Institutions (1991), Africa Betrayed, which won the 1993 H. L. Mencken 
Award for ``Best Book,'' and Africa In Chaos, which was published this 
year.
---------------------------------------------------------------------------

    Mr. Chairman, Ladies and Gentlemen. Thank you for the opportunity 
to testify before this Subcommittee on Africa. As I understand it, the 
purpose of this hearing is to determine the prospects for democracy 
under the current generation of ``new African leaders'' and how the 
U.S. should interact with and help them. Specifically, these new 
leaders comprise, though not exclusively, of the following: Presidents 
Yoweri Museveni of Uganda, Paul Kagame of Rwanda, Meles Zenawi of 
Ethiopia, Isaias Afwerki of Eritrea, Laurent Kabila of the Democratic 
Republic of Congo, formerly Zaire.
Common Characteristics
    These ``new leaders'' share certain common characteristics. They 
all have a military background. Impatient and angry at the appalling 
social misery, reckless economic mismanagement and flagrant injustices 
in their countries, they all assumed political power after waging a 
successful guerrilla campaign to oust corrupt and tyrannical regimes. 
They inherited shattered economies, fragmented societies and states 
that have nearly disintegrated. Upon their shoulders rests the 
formidable task of rebuilding collapsed infrastructure, restoring basic 
essential social services, healing social wounds, repaying huge foreign 
debts and promoting economic development--all at the same time with an 
empty treasury.
    Consider Rwanda, for example. Paul Kagame took over in 1994 a 
country that had been torn asunder by ethnic bloodletting. In an orgy 
of violence and genocide, about 700,000 Tutsis were slaughtered in 
April 1994. Paul Kagame faces the difficult task of bringing to justice 
the Hutu extremists who participated in the Rwandan genocide at a time 
when the judiciary system had been destroyed. More than 80 percent of 
Rwandan judges have been killed, or fled into exile. Over 100,000 Hutu 
extremists languish in jail, awaiting trial and the pace of prosecution 
has been excruciatingly slow. Deep ethnic mistrust pervades Rwandan 
society. The country is still in turmoil. Ethnic tension and warfare 
flare up occasionally, claiming tens of innocent victims. Ethnic wounds 
must be healed, confiscated Tutsi property returned, infrastructure 
rebuilt and the country's development efforts restarted by the new 
government of Paul Kagame.
The Democratic Republic of The Congo (Formerly Zaire)
    Before it imploded in October 1996, the fictional state of Zaire 
was already in an advanced stage of decay after 32 years of arrant 
kleptocratic rule by the late and former president Mobutu Sese Seko. 
Government structures had collapsed, infrastructure had crumbled, paved 
roads had been reduced to cratered cartways. Hospitals lacked basic 
medical supplies; electricity and water supplies were sporadic at best. 
Civil servants and soldiers had gone for months without pay. 
Hyperinflation raged at 23,000 percent a year. The Zairean currency was 
worthless. A new bank note of 5 million zaire, introduced in January 
1993, was worth only 3 U.S. cents. The late and former president, 
Mobutu Sese Seko, who was long backed by Western powers, plundered the 
treasury to amass a personal fortune worth $10 billion at one point.
    President Laurent Kabila faces the herculean task of rebuilding 
this shattered country and at the same time honor the repayment 
obligations on the country's $9 billion foreign debt. The new leaders 
of Eritrea, Ethiopia and Uganda face similar tasks of rebuilding 
shattered societies and collapsed economies, while at the same time 
promoting ethnic reconciliation and establishing democratic rule. 
President Yoweri Museveni of Uganda has brought peace and stability to 
his country and has embarked on a credible economic liberalization 
program. Only time will tell if these reforms are sustainable. 
Nevertheless, the new leaders need all the help they can get and the 
U.S. should assist them in any way it can in their efforts to rebuild 
their countries.
Increasing U.S. Attention To Africa
    I am heartened to note that the Clinton Administration is paying 
increasing attention to Africa, especially the Central African region. 
After a period of abandonment or benign neglect, the Clinton 
Administration is placing Africa on the front burner. Since 1995, the 
White House has held a series of high-level conferences on Africa and 
sent senior administration officials on various African tours. In 
September 1996, former Secretary of State, Warren Christopher, toured 
five African nations to promote the new U.S.-supported African Crisis 
Response Initiative (ACRI). This was to comprise 10,000 to 25,000 
troops, which would be deployed to intervene in serious crises--cases 
of insurrection, genocide or civil strife to avert a Rwanda-like 
conflagration in crisis-laden African countries, such as Burundi, where 
an estimated 150,000 Burundians have perished in ethnic warfare since 
1993.
    First Lady Hillary Clinton and Chelsea followed with a visit to 
Africa in February 1997 and in October, seven African countries were 
toured by Secretary of State Madeleine Albright. This month (March), 
President Clinton, will be visiting Africa for the first time. He will 
hold a regional summit of the leaders of central African nations in 
Uganda. Then this week, Congress will pass the administration's 
``Africa Growth and Investment Opportunity In Africa: The End of 
Dependency Act.''
    The new Africa initiative seeks ``to create a transition path from 
development assistance to economic self-sufficiency for sub-Saharan 
African countries.'' The Bill will authorize a one time appropriation 
of $150 million for an equity fund and $500 million for a 
infrastructure fund beginning in 1998. These funds will be used to 
mobilize private savings from developed economies for equity investment 
in Africa; stimulate the growth of securities markets in Africa; 
improve access to third party equity and management advice for Africa's 
small and medium-sized firms. The infrastructure funds are intended to 
help improve the operations of telecommunications, roads, railways and 
power plants in Africa. These improvements, it was hoped, would help 
attract U.S. investors to potentially profitable projects in Africa. At 
the June 1997 G-7 Summit conference in Denver, President Clinton sought 
to sell this program to other donor countries.
A Critical Assessment of U.S. Efforts To Promote Democracy In Africa
    Mr. Chairman, there are bound to be differences of opinion 
regarding how best the U.S. can help Africa. I am sure you will hear 
lament in some quarters that the U.S. is not doing enough to help 
Africa and that any help must be coupled with debt cancellation. In my 
opinion, however, the issue is not so much whether Africa should or 
should not be helped; rather, it is helping Africa effectively. More 
than $400 billion in aid and various credits have been pumped into 
Africa since 1960 but the results have been negligible. The 1993 
humanitarian mission into Somalia is a case in point. It cost the 
international community more than $3.5 billion, a large part of which 
was borne by the U.S., not to mention the lives of 18 U.S. Rangers who 
perished needlessly during that mission. Eventually, that mission had 
to be abandoned and Somalia today is still in a state of anarchy.
    Nor is the issue whether there aren't any success stories in 
Africa; there are but they are few: Botswana, Eritrea, Guinea, 
Mauritius, and Uganda apart from South Africa. Neither is it the 
absence of any hopeful signs in Africa. The continent of Africa is 
making progress but it has been painfully slow. In 1996, for example, 
Africa's gross domestic product did register a 5 percent rate of 
growth. Although this rate was expected to drop back to 3.4 percent for 
1997, some estimates project a 4.7% rate of growth for 1998. They are 
all higher than the 2 percent growth rate of the early 1990s but 
subtract an average population growth rate of 3 percent and that leaves 
miserly rates of growth of less than 2 percent in GDP per capita. These 
rates are woefully insufficient to reduce Africa's average poverty 
rates, which are among the highest in the world. In fact, a recent 
report from the International Labor Organization estimates that in Sub-
Saharan Africa, the proportion of the population living in poverty will 
increase to over 50% by the year 2000.
    Politically, the democratization process in Africa has suffered 
some serious setbacks. The number of African democracies increased from 
4 in 1990 to 15 in 1995 and then dropped to the now 13 (Benin, 
Botswana, Cape Verde Islands, Madagascar, Malawi, Mali, Mauritius, 
Namibia, Sao Tome & Principe, Senegal, Seychelles Islands, South Africa 
and Zambia). Wily despots learned new tricks to beat back the 
democratic challenge in such countries as Cameroon, Ghana, Kenya, Togo, 
Zimbabwe and others. They wrote the rules of the game, manipulated the 
transition process and rigged elections to return themselves to power.
    Serious reverses occurred in 1997 when reactionary forces overthrew 
democratically-elected governments in Sierra Leone and Congo-
Brazzaville, the latter with French support. (France and the French oil 
company, Elf Acquitaine provided $150 million to the forces of General 
Denis Sassou-Nguesso to overthrow President Pascal Lissouba).
    Clearly, more needs to be done to help the new leaders of Africa 
but in these efforts consistency and substance should be the over-
arching tenets of U.S. efforts to promote democracy in Africa. Although 
the Clinton administration is doing far more that its predecessor 
administrations, the objectives are muddled, the signals are confusing 
and the policies vacillatory. In fact, the U.S.'s record in promoting 
democracy in Africa has been bleak.
    After spending tens of millions of U.S. taxpayers' money on African 
democratization, the administration appeared to be retreating last 
year. Although Madeleine Albright pledged $40 million in new aid for 
democratic reforms during her trip, some U.S. officials were saying 
Africa needed stability before democracy and that the continent lacked 
a ``democratic culture.'' Fortunately, the administration now appears 
to be back on track promoting democracy and we hope it will stay on 
track.
    More disturbing, the administration's response to recent setbacks 
in the African democratization process has been muted and 
disappointing. The Clinton administration did little but wink at 
manifest cases of fraud and ``conflicts of interest,'' where incumbents 
manipulated electoral rules to return themselves to power. Nor did the 
Clinton administration respond vigorously to the outrageous rape of 
democracy in Congo-Brazzaville. Worse, the administration's own 
policies toward Nigeria, the most populous black African nation in the 
region, is in total disarray.
    Nigeria's crass attempts at ``hide-and-seek bazooka'' democracy by 
its ever-competent military thugs have placed the country in a 
perpetual state of transition to democratic rule. Four of the five 
parties approved by General Sani Abacha's regime, have all adopted him 
as their presidential candidate in the forthcoming August elections. 
Nobody has seen Nigeria's constitution; yet it is being amended by the 
Abacha regime to guide the transition process. On March 3, pro-Abacha 
rallies were held in Abuja but when the Coalition For A United Nigeria 
planned a pro-democracy, anti-Abacha rallies in Lagos, police declared 
them ``illegal.'' Imagine.
    Limited sanctions were imposed against Nigeria following the brutal 
hanging of human rights activist, Ken Saro Wiwa, and 8 other Ogoni 
activists in November 1995. But aggressive lobbying efforts by agents 
of the Abacha regime have succeeded in eviscerating the 
administration's initiatives toward Nigeria.
    According to Randall Echolls, a spokesman of the jailed political 
leader, Moshood Abiola, the Abacha regime spent almost $5 million in 
1996 on P-R campaigns to spruce up it shattered image. Several of the 
PR agents are black Americans. For example, Johnny Ford organized the 
World Conference of Mayors in Abuja in December last year, which was 
attended by Washington D.C.'s mayor, Marion Barry. While it is true 
that President Clinton will not be stopping over in Nigeria, nothing 
prevents Nigeria's brutal military dictator from attending the region 
summit in Uganda where President Clinton will deliver a speech.
    At issue here is not so much the policy but the approach. It must 
send clear signals. It must be stripped of symbolism; lives are at 
stake in Africa. It must avoid the blunders of the past. Furthermore, 
it should support African initiatives or ``home-grown'' African 
solutions. After all, Africans problems must be solved by Africans. The 
U.S. can help but it cannot supplant the efforts Africans themselves 
are making.
U.S. Blunders In The Past
    During the Cold War, the geopolitical and strategic importance of 
Africa attracted the attention of the superpowers. With its rich supply 
of minerals and its large potential market for foreign goods, Africa 
became a terrain on which the Western and Soviet blocs and other 
foreign powers competed for access, power, and influence, often by 
playing one country against another. African leaders also benefited 
enormously from the Cold War game. They touted their ideological 
importance to both sides and played one superpower against the other to 
extract maximum concessions and aid. The continent thus became a 
theater of superpower rivalry, intrigues, and blunders.
    Nigeria, for example, which was regarded as a substantial prize 
because of its size and mineral wealth, became the object of intense 
superpower competition. The East met West in 1988 in the hangars of 
Makurdi Air Base in central Nigeria. As The Washington Post (23 July, 
1994) reported: ``Soviet military advisers hovered around two dozen 
MiG-21 fighter jets supplied by Moscow to Nigeria's long-serving 
military government. British advisers watched over 15 Jaguar fighter-
bombers sold to balance the Soviet supplies. Americans ferried supplies 
for nine C-130 transport planes. Czechs tended approximately two dozen 
L-39 jet trainers they had sold. Italians carried spare parts for eight 
G-222 aircraft'' (A1).
    Seduced by the charisma and the verbiage of Third World despots, 
the West provided them with substantial military and economic aid. ``In 
the past, we have had, for national security reasons, to consort with 
dictators,'' admitted former U.S. Ambassador Smith Hempstone (The 
Washington Post, 6 May, 1993, A7). But the heavy Western investment in 
these tyrants, who often were blatantly corrupt and brutally 
repressive, invariably drew the ire of the people of the Third World. 
The subsequent overthrow of these dictators often unleashed a wave of 
intense anti-American or anti-Western sentiment. Tensions rose even 
further when these corrupt ex-leaders almost always managed to escape 
to the West with their booty.
    Similarly, the West often obliged and supported pro-capitalist 
African dictators, despite their hideously repressive and neo Communist 
regimes. For geopolitical, economic, and other reasons, the West 
propped up tyrants in Cameroon, Cote d'Ivoire, Kenya, Liberia, Malawi, 
and Zaire, as Cold War allies to the detriment of democratic movements. 
To check the spread of Marxism in Africa, the United States, in 
particular, sought and nurtured alliances with ``pro-West'' regimes in 
Kenya, Malawi, South Africa, and Zaire and with guerrilla groups (UNITA 
in Angola). Substantial American investment poured into these countries 
and military support was covertly supplied to UNITA. At the same time, 
the U.S. government attempted to woo socialist/Marxist regimes in 
Ghana, Madagascar, Mozambique, Tanzania, and Zambia. U.S. Secretary of 
State Warren Christopher confirmed that ``During the long Cold War 
period, America's policies toward Africa were often determined not by 
how they affected Africa, but by what advantage they brought to 
Washington or Moscow'' (The Economist, 29 May, 1993, 46).
    After the Cold War, Western foreign policy objectives were 
overhauled. Greater emphasis was placed on promotion of democracy, 
respect for human rights, better governance, transparency, and 
accountability, among others. In May 1990, for example, the U.S. 
Congress and the White House reshaped the U.S. foreign aid program in 
light of global political changes and reordered priorities. President 
George Bush sought new flexibility to boost aid to emerging democracies 
in Eastern Europe, Panama, and Nicaragua. Assistant Secretary of State 
for Africa Herman J. Cohen announced in May 1990 that, along with 
economic adjustment and the observance of human rights, democratization 
would soon be included as the third prerequisite for U.S. development 
aid. Shortly after the establishment of the policy of tying bilateral 
aid to political conditions such as the World Bank, the U.S. Congress 
called to do the same for multilateral aid.
    But beyond the rhetoric, nothing much changed underneath the 
surface. It was ``business as usual.'' Old friends remained old 
friends. The reformist winds of change that blew across Africa in the 
early 19905 subsided rather quickly. The West stood by and watched as 
wily autocrats honed their skills to beat back the democratic 
challenge. Africa's democratization experience in the 1990s has been 
marked by vapid Western pronouncements, truculent duplicity, and 
scurrilous abandonment. When the going got tough, the West cut and ran.
    Although virtually all Western governments made lofty statements 
about the virtues of democracy, they did little to aid and establish it 
in Africa. There have been more than 170 changes of government in 
Africa since 1960, but one would be hard pressed to name five countries 
that the West successfully democratized from 1970 to 1990. The record 
since 1990 has been dismal. Pro-democracy forces in Benin, Cape Verde 
Islands, Zambia, Malawi and other newly democraticized African 
countries received little help from Western governments. Nor have 
democratic forces in Ghana, Nigeria, and Kenya for that matter.
    On 29 December 1992, Kenya held its first multiparty elections in 
26 years. Every indication pointed to a fraudulent outcome. Opposition 
parties were given barely two months to campaign. In his campaign 
speeches Moi, who has earned a reputation for political thuggery, vowed 
that he would crush his opponents ``like rats.'' On 9 December, 
candidates or their agents were required to hand in their papers in 
person. ``Nearly 50 opposition activists were barred from doing do, by 
various means. They met illegal roadblocks, papers were snatched from 
their grasp, some were kidnaped. No KANU candidate met such 
obstructions'' (The Economist, 26 December, 1992, 52). Opposition 
candidates and their supporters were harassed, voter registration rolls 
were manipulated, opposition rallies were restricted, and the state 
media was biased in favor of the ruling party. Moi handily ``won'' the 
elections, although disunity among Kenya's opposition parties played a 
role. Yet, U.S. response to this massive electoral outrage in Kenya was 
meek.
    To be sure, Western governments cannot dictate the type of 
democracy that will be suitable for the African people themselves. But 
the West can indicate what it will not accept: democratic malfeasance 
(manipulation and control of the transition process by one side) or 
unlevel political playing fields (opposition parties denied access to 
the state media and stripped of state resources).
    Democracy is not dictated or imposed. It is a participatory 
exercise. In South Africa, all the various political parties and anti-
apartheid organizations gathered together in a Convention for a 
Democratic South Africa to create a new society for their country. But 
in Cameroon, Ghana, Nigeria, Kenya, Togo, and many other African 
countries, incumbent governments drew up the transition programs by 
themselves without the participation of political parties, which were 
banned.
    If Western governments will not help the pro-democracy groups, they 
should at the very least be fair, neutral, and consistent. In South 
Africa, the African National Congress (ANC) received funds and materiel 
from Western governments. Similarly in Poland, Solidarity received 
substantial assistance from Western governments. So why not help the 
Lech Walesas and Mandelas of the rest of Africa? But rather sadly, 
Western aid to African pro-democracy forces or civil society has been 
appalling and virtually non-existent. Further, the standard applied to 
Kenya and Nigeria should be the same one applied to Ghana and Togo. 
Unfortunately, official Western approach to democratization in Africa 
has been marked by blatant inconsistencies and double speak.
    This record makes me skeptical of the Clinton administration's 
efforts to promote democracy under Africa's new leaders.
Understanding Africa's Problems
    The U.S. can help Africa if only it understands Africa's problems. 
Else, it will continue to repeat its 1993 Somalia blunder. One word, 
power, explains why Africa is in its current state of chaos, carnage, 
never-ending cycles of civil wars, violence, and collapsing economies. 
The struggle for power, its monopolization by one individual or group, 
and the subsequent refusal to relinquish or share it.
    The competition for political power has always been ferocious 
because, in Africa, politics offers the passport to fabulous wealth. 
``Government,'' as it is understood in the West does not exist in many 
African countries. What exists is a ``mafia state''--a government 
hijacked by a phalanx of gangsters, crooks and vagabonds. This cabal of 
criminals use the machinery of government to perpetuate themselves in 
power and to enrich themselves, their cronies, relatives and tribesmen. 
All others are excluded (``the politics of exclusion''). The richest 
persons in Africa are heads of state and ministers. Often, the chief 
bandit is the head of state himself.
    Those who capture the state transform it into their own personal 
property, never wanting to give up power. It is this adamant refusal of 
African despots or the ruling elites to relinquish or share political 
power that lies at the root of all of Africa's civil wars. In fact, the 
destruction of an African country, regardless of the professed ideology 
of its government or foreign patron, always always begins with some 
dispute over the electoral process. The blockage of the democratic 
process or the refusal to hold elections plunged Angola, Chad, 
Ethiopia, Mozambique, Somalia, and Sudan into civil war. The 
manipulation of the electoral process by hardliners destroyed Rwanda 
(1993), and Sierra Leone (1992). The subversion of the electoral 
process in Liberia (1985) eventually set off a civil war in 1989 and 
instigated civil strife in Cameroon (1991), Congo (1992), Togo (1992) 
and Kenya (1992). Finally, the annulment of electoral results by the 
military started Algeria's civil war (1992) and plunged Nigeria into 
political turmoil (1993).
    Government, therefore, is totally divorced from the people in many 
African countries. Therefore, Western governments must always make a 
distinction between African governments or leaders and the African 
people. The two are not necessarily synonymous since the leaders do not 
represent the people. The expression, ``The U.S. is helping Africans 
reform their economies,'' is very misleading. Who is being helped: the 
leaders or the people? This distinction is often not made by the 
Clinton Administration in its moves to show concern for and grapple 
with the Africa's economic crisis.
    The first attempt was a June 27,1994 White House gathering ``to 
raise the profile of Africa,'' ``express solidarity with its people,'' 
and proclaimed a new mantra: ``true partnership with African 
leadership.'' It turned out to be a public relations fluff with little 
substance. In attendance was a preponderance of apologists and 
representatives of failed African governments. Ten years earlier, a 
White House conference on the Soviet Union would have drawn its 
speakers and guests from the exiled Russian dissident community. There 
were no exiled African dissidents at 27 June 1994 White House 
Conference on Africa.
    On 17 June 1997, White House called another conference on Africa 
for President Clinton to announce his new policy toward Africa. Again, 
no exiled African dissident was invited. At that gathering, President 
Clinton's painted overly optimistic portrait of ``a dynamic new Africa 
making dramatic strides toward democracy and prosperity'' (The 
Washington Post, 18 June 1997, Al 8). Such a portrait is more apt to 
breed cynicism. There have been no such ``dramatic strides'' but rather 
``baby steps.''
    As desirable as the ouster of Mobutu of Zaire, Mengistu of Ethiopia 
and Habryimana of Rwanda might be, the U.S. and the international 
community need to be extremely wary of enthusiastically embracing 
people who shoot their way to power in Africa. Such active and open 
support for a rebel insurgency poses a serious setback to the 
democratization process in Africa. It sends a dangerous signal and 
delivers a destabilizing jolt to a continent already reeling from 
wanton brutality, chaos and carnage. Other insurgencies would be 
encouraged. Indeed, this was precisely the case in Sierra Leone, where 
the band of military goons led by Captain Paul Koroma overthrew the 
democratically-elected government of Tejan Kabbah, who has been 
restored to power, and Congo (Brazzaville), where the civilian 
government of Pascal Lissouba was overthrown by General Sassou Nguesso; 
both in 1997.
    More importantly, Africa's postcolonial experience with rebel 
leaders has been ghastly and trenchantly disconcerting, hardly 
inspiring confidence and hope. Most of the rebel leaders, who set out 
to remove tyrants from power, often turned out be crocodile liberators, 
who left wanton carnage and human debris in their wake. They preached 
``democracy'' but were themselves closet dictators, exhibiting the same 
tyrannical tendencies they so loudly denounce in the despots they 
replaced. And hitched to their movement was a cacophonous assortment of 
quack revolutionaries, vampire elites and intellectual hyenas. Even 
before they removed the despot, they squabbled among themselves over 
ministerial posts and government appointments.
    Africa's liberation struggle has been a truculent tale of one 
betrayal after another. Are these ``new leaders'' simply new wine in an 
old bottle? There is a popular saying among Africans, which goes like 
this: ``They all come and do the same thing all over again.'' A sense 
of deja vu pervades the African community.
The Solution
    There is a simple indigenously African solution to all these 
crises. When a crisis erupts in an African village, the chief and the 
elders would summon a village meeting--similar to New England's town 
hall meetings. There, the issue was debated by the people until a 
consensus was reached. Once a decision was taken, all, including the 
chief, were required to abide by it.
    In recent years, this indigenous African tradition was revived and 
reconstituted as ``sovereign national conferences'' and used to ordain 
a democratic dispensation for Benin, Cape Verde Islands, Congo, Malawi, 
Mali, Zambia and South Africa. Benin's 9-day ``national conference'' 
began on Feb 19, 1990, with 488 delegates, representing various 
political, religious, trade union, and other groups encompassing the 
broad spectrum of Beninois society. The conference, whose chairman was 
Father Isidore de Souza, held ``sovereign power'' with its decisions 
binding on all, including the government. It stripped President 
Matthieu Kerekou of power, scheduled multiparty elections and ended 17 
years of autocratic Marxist rule.
    South Africa used exactly the same vehicle to make that arduous but 
peaceful transition to a multi-racial democratic society. The 
Convention For A Democratic South Africa (CODESA) began deliberations 
in July, 1991, with 228 delegates drawn from about 25 political parties 
and various anti-apartheid groups. CODESA was ``sovereign'' and strove 
to reach a ``working consensus'' on an interim constitution. It set a 
date for the March 1994 elections and established the composition of a 
transitional government to rule until then.
    By contrast, Burkina Faso, Cameroon, Gabon, The Gambia, Ghana, 
Kenya, Niger, Zimbabwe and several African countries refused to hold 
national conferences. The electoral process was blatantly manipulated 
and rigged to return despots to power.
    Consider Niger, for example, where a military thug, General Ibrahim 
Bare Mainassara, seized power in a Jan 27 1996 coup. Under intense 
pressure from both the domestic and the international community, Gen. 
Mainassara held presidential elections on July 6,1996, which he himself 
contested. Opposition parties were given less than two months to 
campaign. When early results showed that he was losing, Mainassara 
sacked and replaced the Independent National Electoral Commission 
(CENI) with his own appointees, placed his opponents under guard in 
their own houses and cut off their phone lines. A ban on public 
gatherings in Niamey was imposed on July 9 and security forces were 
deployed at candidates' homes and opposition party offices. The 
floodlit Palais des Sports, where the results were centralized was 
guarded by an armored car and heavy machine guns mounted on pickup 
trucks. Two radio stations were stopped from broadcasting and all of 
the country's international phone lines were shut down. After the 
Supreme Court, with bazookas pointed at its building, declared 
Mainassara the ``winner,'' the opposition candidates were released.
    Other African countries, such as Nigeria, Togo and Zaire, held 
these conferences but so devilishly manipulated them to render them 
utterly useless. Togo's 1992 national conference went nowhere. 
Nigeria's 5-year transition program, started by former dictator, Gen. 
Ibrahim Babangida in 1985, was s-t-r-e-t-c-h-e-d with frequent 
interruptions, devious maneuvers and broken promises. For 8 years, 
Babangida went through political contortions and dribbles (hence the 
name ``Maradona'' after Brazilian soccer star), constantly shifting the 
goal posts, reneging on four occasions to return the country to 
civilian rule and finally annulling the June 12, 1993 elections, which 
were the most free and fair in Nigeria's history, and throwing the 
winner, Chief Moshood Abiola, into jail.
    Babangida's charade was immediately followed by General Sani 
Abacha's scam transition, replete with suffocating chicanery, 
manipulation and acrobatics. The June 1995 Constitutional Conference 
turned out to be a wicked fraud. Above all, the Constitutional 
Conference was not sovereign.
    It must be made clear it is not the new leaders who must determine 
the democratic future of their respective countries. This issue, as 
well as when and how to hold elections, are decided at a sovereign 
national conference. This is the vehicle which was successfully used to 
democratize Benin and South Africa. Moreover, it is an indigenous 
African institution.
Recommendations
    To conclude this testimony, Mr. Chairman, let me say that helping 
Africa really doesn't take much, using a better approach that 
understands Africa's problems. During the Cold War, the U.S. invested 
heavily in the anti-communist rhetoric of Africa's strongmen. Even 
today, there is still heavy emphasis on ``leaders,'' as in ``the new 
leaders of Africa.'' This should be de-emphasized and the focus placed 
on institutions.
    You cannot establish democracy in Africa without having in place 
the supporting institutions. In fact, the real causes of the Africa's 
economic decline and chronic instability are the absence of a few key 
institutions: an independent central bank, an independent judiciary, an 
independent media, a professional and neutral security forces (military 
an police), and a sovereign national conference--the mechanism for 
peaceful resolution of conflicts and transfer of political power. The 
absence of these critical institutions has banished the rule of law, 
respect for property rights, security of persons and property, social, 
political, and economic stability from much of Africa. As a result, 
corruption is rampant, commercial and personal property is arbitrarily 
seized by drunken soldiers, dissidents frequently ``disappear'' and 
senseless civil wars rage for years on end. Throw in crumbling 
infrastructure and that creates an environment that deters even African 
investors, so why would Americans want to invest in such a place? This 
environment cannot be cleaned up by the United States but by Africans 
themselves.
    We may preach all we want about ``accountability,'' 
``transparency,'' ``combating corruption,'' and so on. But all these 
would not mean a thing until we have in place an independent judiciary 
to enforce rule of law and an independent media to expose criminal 
wrongdoing. Quite often, Western governments and donor agencies talk 
through their hats. They pontificate ad nauseam about ``middle class,'' 
``civil society,'' and ``democracy''--as if these emerge out of thin 
air. They place the emphasis on the outcome, with little or no focus on 
the institutions and processes that are necessary to achieve those 
desirable outcomes. They have watched silently as brutalities were 
heaped on civil society--the wellspring of reform and change and have 
done next to nothing to assist or fund the activities of indigenous 
African nongovernmental organizations or helped nurture civil society.
    All experts agree that civil society would put the brakes on 
tyrannical excesses of African regimes. But for civil society to 
perform its watchdog role, as well as to instigate change, two key 
institutions are critical: freedom of expression and freedom of 
association. But since independence there has been a systematic 
strangulation of freedom of expression in Africa. The state monopolized 
the information media and turned it into propaganda organ for the party 
elite. Anyone not in the government's party was necessarily a 
dissident, and any newspaper editor or journalist who published the 
slightest criticism of an insignificant government policy was branded a 
``contra'' and jailed or killed, including journalists who for years 
had praised government measures. Even newspapers that have lavished 
praises on the government were closed for carrying an occasional 
critique.
    After the collapse of communism in 1989, a brief gust ``of change'' 
swept across Africa. In a number of countries, long-standing autocrats 
were toppled. Free and independent newspapers sprouted and flourished 
but, by 1995, had begun to suffer a series of setbacks. According to 
New York-based Freedom House, of Africa's 54 countries, only seven have 
a free press. Of the 20 countries throughout the world where the press 
is most shackled, nine are in Africa: Algeria, Burundi, Egypt, 
Equatorial Guinea, Libya, Nigeria, Somalia, Sudan, and Zaire. Countries 
in the ``not-free'' category include Angola, Cameroon, Central African 
Republic, Chad, Eritrea, Ghana, Guinea, Ivory Coast, Kenya, Liberia, 
Mauritania, Rwanda, Sierra Leone, Swaziland, Togo, and Tunisia (The 
African Observer 6-19 June 1996, 25).
    Kakuna Kerina, program coordinator for sub-Saharan Africa for the 
Committee to Protect Journalists, a New York-based group, sent a letter 
in 1996 to the OAU reminding it that injudicious detention, censorship, 
and intimidation of journalists work against the public's right to 
information and the right to hold and express opinions and ideas. Both 
rights are guaranteed under Article 19 of the U.N. Charter and Article 
9 of the African Charter on Human and People's Rights, to which most 
African countries are signatories. Kerina pointed to Nigeria, Cote 
d'Ivoire, The Gambia, Zambia, Angola, Kenya, Liberia, and Cameroon as 
nations where the press is severely restricted.
    Most bewildering, said Kerina, is the fact that press and general 
freedoms are most restricted in those African countries that multiparty 
democracies. The strangulation of the press in the post cold War period 
has been most evident in West Africa, where ``at least 12 journalists 
have been detained in Ivory Coast, The Gambia, Ghana, Sierra Leone and 
Nigeria in the past month. Since 1994, West African governments have 
seized dozens of magazines and newspapers, deported journalists, and 
closed independent radio stations in Cameroon, Togo, The Gambia, Mali 
and Gabon'' (The Washington Times, 6 April 1995, A15).
    Due to the explosion in the number of satellite dishes, electronic 
communications (fax machines, the internet, e-mail, etc.), much more 
information is now available in Africa. The new technology has severely 
hindered the ability of African dictators to control the flow of 
information and keep their people in the dark. In their desperate 
attempts to retain control, defamation or libel suits and murder have 
become the choice tactics of corrupt regimes. ``At least 30 libel suits 
have been filed against the independent press by leading members of the 
government in what is seen largely as an attempt to stifle freedom of 
expression,'' said Kwesi Pratt, Jr. president of the Private Newspaper 
Publishers Association of Ghana (Free Press, 20 December-2 January 
1997).
    In Angola, BBC reporter Gustavo Costa was slapped with a defamation 
suit in June 1994 by oil minister Albna Affis after filing stories 
about government corruption. On 18 January 1995 Ricardo de Melo, the 
editor of the Luanda-based Impartial Fax, was killed for writing 
stories about official corruption.
    In Cameroon, Emmanuel Noubissie Ngankam, director of the 
independent Dikalo was given a one-year suspended sentence, fined CFA 5 
million ($8,800), and ordered to pay CFA 15 million in damages after 
publishing an article alleging that the former minister of public works 
and transportation had expropriated property in the capital Yaounde. 
Also in Cameroon, staff at two other newspapers, La Nouvelle Expression 
and Galaxie, were sued for defamation by Augustin Frederick Kodock, 
state planning and regional development minister, over newspaper 
articles alleging that the minister's private secretary had embezzled 
large sums of money. Then ``the Cameroonian newspaper which reported 
President Biya's marriage to a 24-year-old has been suspended by the 
government. When Perspectives-Hebdo ran the story on March 17, 1994, 
police quickly seized all available copies. Joseph-Marie Besseri, the 
publisher, said the official reason for the ban was failure to show the 
edition to censors before distribution, as the law requires. He denies 
the charge'' (African News Weekly, 8 April 1994, 5).
    Similarly in Sudan, journalists must register with a state-
appointed press council or risk jail terms and fines. According to The 
African Observer (8-21 August 1995), ``So far, more than 596 
journalists have done so. However, 37 were rejected on the grounds that 
they were inexperienced. Some of the rejects are graduates of 
journalism schools, others hold masters degrees in social studies. 
Those rejected were given a second chance. They were made to sit an 
examination in mid-July, but only 19 of the 37 passed the exam, which 
tested their knowledge of the achievements of el Bashir's government.'' 
(21)
    In a dramatic testimony before the House Africa and International 
Operations and Human Rights Subcommittee in January 1996, Larry 
Diamond, a senior fellow at the Hoover Institution in California, made 
this observation:

          Historically, Nigeria has had the most vibrant and 
        pluralistic civil society in Africa (with the possible 
        exception of South Africa.) One of the most tragic consequences 
        of military rule has been the decimation of and degradation of 
        this sector as well. Interest groups, such as the labor 
        movement, the professional associations, and women's 
        organizations have been infiltrated, corrupted, and subverted 
        by the authoritarian state. Those that would not bend have been 
        relentlessly hounded and repressed. The most independent 
        publications have suffered prolonged closures and more subtle 
        forms of state pressure, such as cutting off access to 
        newsprint at affordable cost. Human rights groups have suffered 
        constant surveillance, harassment, intimidation, and repeated 
        arrest. Several leading human rights figures are now in jail. 
        The decimation of civil society not only handicaps the campaign 
        for a transition to democracy, it also weakens the 
        infrastructure that could help to develop and sustain that 
        democracy after transition (Congressional Records, January 
        1996).

    There has been no letup in the brutal clamp down of ``dissident'' 
activity. Beginning in 1994, Nigeria's military government closed three 
publishing houses--effectively shutting nearly 20 publications--for 14 
months. Security agents also have arrested more than 40 journalists, 
detaining some for several days The Washington Post, 7 April 1996, 
A18). The repression forced Nobel laureate Wole Soyinka to flee his own 
native Nigeria after instances such as the following:

          Armed security forces descended on a book launching at Nkpolu 
        Oraoorukwo Town Hall, firing tear gas at citizens and causing 
        pandemonium. The object of their ire was the book, entitled My 
        Ordeal--A Prison Memoir of a Student Activist, written by 
        Christian Akani, Campaign for Democracy chairman in River 
        State. It expresses the hardships of Nigeria and the treatment 
        meted out to those who express displeasure with the country's 
        policies. The security operatives who came to the launching 
        claimed that the organizers did not obtain security clearance 
        for such activities (African News Weekly, 18 November 1994, 4).

    The officers fired tear gas into the crowd, which hastily 
dispersed, then seized copies of the book and arrested the author who 
was taken to an undisclosed location. Imagine. So when Shi'ite Muslims 
in Zaria (Nigeria) went on a demonstration in October 1996, ``they 
carried coffins in case security agents opened fire on them during the 
procession.''
    The barbaric crackdown on political dissent and journalists has had 
an unintended effect of boosting urban crime. With the police going 
after political activists, Nigerian armed robbers have been having a 
field day, raiding one house after another with impunity. ``No day 
passes without a robbery here or there. It is so common now as the 
police have focused their attention on just quelling political 
demonstrations to the detriment of curbing crime,'' said Lanre 
Olorunsogo, a tenant in Onike, a Lagos suburb (African Observer, 23 
August-5 September 1994, 4). How can civil society emerge under these 
circumstances?
    The other right vital for the sustenance of civil society--freedom 
of association--has progressively been squelched in postcolonial 
Africa. In many countries, gatherings of more than persons required 
official sanction or they can be broken up by thugs or gun-toting 
zombies. In Cameroon, police disrupted a meeting of the opposition 
Union for Change on 19 August 1993, and arrested and detained the 
party's administrative secretary, Francois Evembe, over an article 
published on 9 August 1993 entitled ``The problem is the Man that 
Resides at Etoudi [government house]'' (Index on Censorship, October 
1993, 42).
    In Nigeria, clearance must be obtained from a paranoid military 
government to hold even a seminar or conference, because such a 
gathering might pose a threat to state security. Consider these events 
as reported by Index on Censorship (March, 1993, 38):

          On November 27, 1992, more than 250 police and state security 
        forces disrupted a vigil for democracy in Lagos organized by 
        the Civil Liberties Organization. Police subsequently visited 
        vigil organizers Peter Eriose and Imogeo Ewhuba and threatened 
        them with arrest if they continued their pro-democracy 
        activities. Eriose went into hiding.
          On December 1, 1992, 500 security agents prevented members of 
        the Campaign for Democracy (CD) from holding a meeting at the 
        Nigeria Union of Journalists in Lagos. The same day, several 
        people on a pro-democracy march in Kano State were arrested, 
        including Dr. Wada Abubakar, former deputy governor of Kano 
        State, Onuana Ammani, former president of the Social Democratic 
        Party, and Wada Waziri, a former union leader.
          On December 2, 1992, police and security agents took over the 
        senate chambers at the former National Assembly Complex where 
        the Civil Liberties Organization was planning a seminar on 
        ``Women and Taxation in Nigeria.'' The seminar was rescheduled 
        for 15 December, but previously granted permission was 
        withdrawn the evening before and police refused participants 
        entry to the premises.

    On March 19, 1996, Government agents blocked the U.S. Ambassador, 
Walter Carrington, from a conference organized by the American Studies 
Association of Nigeria in the northern city of Kaduna. The organization 
often sponsors forums on a wide range of topics. Security agents turned 
Carrington and several embassy staffers away from the conference and 
then broke up the gathering (The Washington Post 20 March 1997, A14). 
In September 1997, pro-democracy and human rights groups held a 
reception in honor of U.S. Ambassador, Walter Carrington, who was 
leaving Nigeria. ``Security agents broke down the gate at the house 
where the reception was being held. After entering the residence, they 
drew their guns and broke up the gathering'' (The Washington Post, 3 
October 1997, A9).
    On 7 July 1997 Kenyan opposition politicians and human rights 
activists organized protests to push the government of Daniel arap Moi, 
in power for 19 years, to reform electoral and other laws that are 
viewed as oppressive. The government's response was swift and 
ferocious. Riot police and elite paramilitary General Service Unit 
officers charged into the protest rallies, firing tear gas and live 
rounds. Eleven people were killed and dozens were injured.
    Riot police even charged into Nairobi's All Saints Cathedral where 
about 100 people were praying. They lobbed a tear gas canister that 
landed near the altar and beat bloody numerous parishioners. ``We were 
in the middle of the service when they broke in, fired tear gas into 
the house of God. This is Kenyan justice for you. Even in God's house 
they beat innocent protesters,'' said Rev. Peter Njoka (The Washington 
Times, 8 July 1997, A11). ``These are the actions of fellows who are 
really primitive,'' said Mike Kibaki of the Democratic Party, whom 
police clubbed on the shoulders while he was in the cathedral (The 
Washington Post 8 July 1997, A8).
    Moi and ruling party leaders claim that the opposition parties seek 
to foment violence and are too disorganized and divided to rule the 
country effectively. ``How can we tell the people what we are offering 
if we cannot meet,'' asked Kimani Kangethe, a political activist who 
helped organize the Nairobi protests. ``Moi does not want to reason,'' 
Kangethe said (The Washington Post, 8 July 1997, A8).
    On 11 May 1995 over 80,000 Ghanaians, exercising their 
constitutional right, marched through the principal streets of Accra, 
the capital, to protest the high cost of living. Article 21, Section 
1(e), of Ghana's 1992 constitution states: ``All persons shall have the 
right to freedom of assembly including freedom to take part in 
processions and demonstrations.'' ``We are protesting because we are 
hungry,'' said Kojo Dan, an accountant. ``We are not against the 
Government. We are civil servants.'' But the government unleashed its 
paramilitary organ--the Association for the Defense of the Revolution, 
ACDR--whose members fired on the peaceful demonstrators, killing four 
and seriously injuring about 20. (The Ghanaian Chronicle, 17 May 1995, 
3).
    To conclude, Mr. Chairman, instead of persuading, cajoling, bribing 
or jaw-boning African autocrats to reform their abominable political 
systems, the focus should be shifted from ``leaders'' to 
``institutions.'' It is not the professed ``commitment'' of the new 
leaders that should draw U.S. financial assistance. Rather, it is the 
convocation of a sovereign national conference, the establishment of an 
independent central bank, an independent judiciary, an independent 
media, a professional and neutral security forces (military and police) 
that should be the basis of U.S. relationship with the ``new 
leaders''--and indeed all--the leaders of Africa. Because it is these 
very institutions the African people need to come up with their own 
solutions to their problems.
    Mr. Chairman, I can assure you that the establishment of these few 
institutions would ensure that a great majority of Africa's incessant 
problems would be resolved and the continent placed on a fast-growth 
track. Guaranteed.
    Thank you.

    Senator Ashcroft. Thank you very much. I very much 
appreciate your remarks.
    I think we will withhold questions until we have had the 
opportunity to hear Dr. Baker. Then I believe I will call on 
the Senator from Wisconsin to make his remarks and ask any 
questions he may want of the panel while he still has the 
opportunity to be with the subcommittee.
    So, Dr. Baker, if you can, please summarize. As you know, I 
am not going to be very strict about the time limit, but I 
would appreciate your observation of the sensitivities of the 
subcommittee.

STATEMENT OF DR. PAULINE BAKER, PRESIDENT, THE FUND FOR PEACE, 
                        WASHINGTON, DC.

    Dr. Baker. I will certainly try to observe your suggestion.
    Mr. Chairman, Senator Feingold, I want to thank you both 
for giving me this opportunity to testify today.
    Can you hear me all right?
    Senator Ashcroft. We can hear you better.
    How is the audience doing in the back? Can you hear her?
    Dr. Baker. All right. I will pull the microphone closer. 
Thank you.
    It is a particular honor for me to testify here today 
because, as you may know, I used to be a professional staff 
member of the Senate Foreign Relations Committee and was Staff 
Director of the Africa Subcommittee. So I really do appreciate 
the role you play and I applaud you for this hearing.
    I have a longer statement. I am going to be brief and go 
through it fairly quickly. I will just touch on the highlights. 
So I would appreciate it if the full statement could be placed 
in the record.
    Senator Ashcroft. Without objection, any statements by any 
of the witnesses that they choose to submit will be included in 
the record.
    Thank you.
    Dr. Baker. Thank you.
    When I was here at the committee--and I won't tell you how 
many years ago that was--we were asking the same sorts of 
questions that you are raising today of the first generation of 
post independence leaders in Africa. Who are these leaders? 
What are their priorities? How effective will they be in really 
promoting genuine political and economic development?
    While it was not clear at the outset, I think it is fair to 
say that there is general agreement today that that first 
generation failed. Some were well motivated, but few really 
fulfilled the promise of African independence.
    I will not go through the litany of woes in the past, but I 
think it is a good starting point; because it does present some 
indications of whether or not, as I think Professor Ayittey 
very eloquently said, we should put so much stock in leaders as 
opposed to institutions and processes.
    In the 1990's, however, there are some encouraging signs of 
change. In fact, some people have even been talking about an 
African renaissance, a term which captures this idea of a 
second independence or a rebirth.
    I think Nelson Mandela and the remarkable transition in 
South Africa embodies that hope. But also there has been a lot 
of progress in Southern Africa as a whole, and I think to that 
extent the term may apply.
    There are other encouraging signs as well. The butchers of 
Africa, such as Idi Amin and Mengistu, have left the scene. 
There has been some progress in democratization, multi-party 
elections, market oriented economic changes, et cetera.
    These positive images of Africa, though, in my view have 
been somewhat overblown. Particularly, I think this concept of 
the new generation of leaders is indicative of that.
    The term refers, as I think it was indicated earlier, to a 
small network of East and Central African leaders whose support 
of democratization is weak or nonexistent. Nor are they as 
often portrayed as inclusive of all elements of their society 
as many have suggested.
    This portrait of this new leadership was summed up in an 
article in ``Foreign Affairs'' recently by Dan Connell and 
Frank Smyth. They portrayed them as a young vanguard of 
determined nationalists.
    Nationalists they may be. But they are more representative 
in my view of the overall fluidity and instability of African 
politics than democratization, which is by no means a stable or 
enduring process in Africa yet.
    For example, we frequently point to the fact that there 
have been several elections in Africa, and that is true. But 
the quality of elections has eroded. Political transitions 
often mock democracy; and I think Senator Feingold suggested 
this in his comments about Nigeria, the continent's most 
populous country, where the political transition has really 
been a sham.
    In some cases, the elections have been successful; but 
there has been backsliding on democratization, such as in 
Zambia, or total breakdowns, if not backsliding, as in Sierra 
Leone.
    So we have to look very closely at this thesis of a new 
generation of leaders. Are they saviors of Africa or are they 
simply a new group of strong men who will be a new 
authoritarian group?
    My principal concern in this sort of uncritical embrace of 
them is that we are, in fact, embracing a new generation of 
strong men in the name of postcold war stability and economic 
reform, just as we have pumped up the old generation in the 
name of cold war stability and anti communism.
    If so, we could be nurturing the kind of crony capitalism 
in Africa that is undermining Asia and encouraging a replay of 
the pattern of personal rule that has dogged the continent for 
decades.
    Now I do want to stress here that I do think the 
administration deserves praise for raising the salience of 
Africa. I do think that they are trying to recast the 
relationship of the United States with Africa. In that sense, 
they have to listen to leaders of Africa.
    Admitting our failure to not respond to the genocide in 
Rwanda is another good step. The African Trade and Opportunity 
legislation is a good step. The visits to Africa from Hillary 
Clinton to the Secretary of State to the President are very, 
very good and are long overdue.
    We also have to recognize that, I think, as Assistant 
Secretary of State Susan Rice said, things are not easy. 
Recovering from genocide is not easy.
    Nonetheless, my concern is that we are tolerating human 
rights abuses and calling nondemocratic leaders democratic 
simply because they apply favorable economic policies. If so, 
we are inviting another round of disillusionment, as we had 
with the first generation of African leaders.
    These African leaders, as I said before, came to power 
through force of arms. They are not inclusive. They are 
ethnically allied or related, and they represent a very close 
network of allies.
    They are united not so much by common values but by common 
enemies, and I think they are going to continue to do that.
    There are two problems with this new axis of power in 
Africa. First, they tend to establish a standard of behavior 
that defies international norms of human rights. We know that 
Congo and Rwanda still stand accused of many human rights 
violations and, unless these are addressed, even though we are 
addressing other issues, it is going to continue to fuel the 
cauldrons of ethnic conflict and we are not going to break the 
cycle of impunity.
    Second--and this is a new development--the leaders openly 
defy the international norm of noninterference in the internal 
affairs of other States.
    Now there has been, of course, a long history of 
interference in the internal affairs of other States, with many 
States supporting rebels across borders. Of course, the world 
breathed a sign of relief when people like Mobutu left the 
scene, even if it required external intervention.
    But what we are seeing now is that armies are openly 
crossing borders to topple regimes. The question here is what 
are the limits to this military intervention. What country will 
be next on the list?
    Is this the sort of international behavior that we really 
want to encourage in Africa?
    It is not just these five leaders that we have been talking 
about. Angola, as was mentioned, was very pivotal to the change 
in Zaire. Nigeria is leading the ECOWAS peacekeeping operation 
in Liberia and Sierra Leone but has also operated elsewhere in 
the region in ways that defy international standards.
    So what is the U.S. to do if these are the threats to 
Africa? I will be very brief and run through them very quickly.
    First, I think we have to consistently reiterate our 
commitment to the principles of democracy and human rights and 
deal promptly and directly with the difficult problem areas. 
This includes not just Central Africa but the hard cases like 
Nigeria as well.
    Second, the U.S. should act before the worst happens. We 
talk a lot about preventive diplomacy. We say we are sorry that 
we did not act earlier in Rwanda. But if there is genocidal 
violence in Rwanda or Burundi again, I don't think we are any 
better prepared for that eventuality now than we had been in 
the past.
    Third, we must begin to address the institutional needs of 
State building in Africa along with democratization. This means 
more than pressing for elections. It means aiding in the 
rebuilding of the essential institutions, including a 
professional system of justice, the police, a civil service, 
and even a professionalized army.
    Fourth, we should not fall into old habits of raising false 
hopes. We tend to over promise and under deliver in Africa. We 
preach democracy and human rights and then not follow through 
or, worse, gloss over the deficiencies when they are apparent. 
We regret that we have not acted sooner but then do nothing 
concrete to prevent another genocide in Central Africa.
    Maybe the President's trip in Africa will be a step 
forward, particularly with the summit, in order to rectify some 
of these deficiencies.
    In conclusion, let me just say that I think the President's 
trip to Africa really is a good opportunity to address some of 
these problems. I hope that he tells it like it is in Africa 
and that he addresses these deeper issues.
    Thank you very much.
    [The prepared statement of Dr. Baker follows:]

             Prepared Statement of Dr. Pauline H. Baker \1\

---------------------------------------------------------------------------

    \1\ The views expressed in this testimony are those of the author. 
They do not necessarily represent the views of The Fund for Peace or 
its projects.
---------------------------------------------------------------------------

    I appreciate the opportunity to testify today on the prospects for 
democracy in Africa and the role the so-called ``new generation of 
leaders.'' It is a special honor to be here because I was a 
professional staff member for this committee some years ago. At that 
time, we were asking the same kind of questions of the first post-
independence generation: Who are the leaders of Africa? What are their 
priorities? How effective will they be in promoting genuine political 
and economic development?
    While it was not clear at the outset, there is general agreement 
today that the post independent leaders were a disappointment. Some 
were well motivated, but few fulfilled the promise of African 
independence. There has been some progress, for instance in education, 
and much political experimentation in the nearly four decades of 
independence. However, Africa has stagnated economically and its state 
institutions have decayed. Vast amounts of government revenue were 
squandered in white elephant projects or ended up in leaders' private 
oversees bank accounts.
    Some countries lapsed into military rule, others into single-party 
or one-man dictatorships. Consequently, the majority of the African 
population is worse off today than they were at independence.
    In the 1990s, however, there are encouraging signs of change. Some 
have even argued that the continent is on the threshold of an ``African 
renaissance,'' a term which captures the idea of a ``rebirth'' or ``a 
second independence.'' The remarkable transition in South Africa and 
the inspiring model of Nelson Mandela embodies this hope. So does the 
progress made in ending conflicts in southern Africa. If the peace 
accord in Angola holds, southern Africa will be without war for the 
first time in its post-colonial history.
    There are other encouraging trends as well. The butchers of Africa, 
such as Uganda's Idi Amin or Ethiopia's Mengistu, have left the scene. 
Some African countries have registered impressive economic growth 
rates. Several nations have moved in the direction of democratization, 
holding sovereign national conferences, an innovative mode of political 
transition, which resulted in changes in parts of Francophone Africa. 
Since 1990, multiparty elections have been conducted in more than 
thirty countries. In addition, the ideological battles are over. 
Market-oriented reforms have been adopted in most countries and 
hundreds of state-owned corporations have been privatized.
    However, these positive images of Africa are not always what they 
seem. The portrayal of a ``new generation of leaders'' represents, in 
my view, one of the distortions. Oddly, the term does not refer to 
Nelson Mandela or other popularly elected leaders, nor to the 
impressive way that civil society has pressed for democracy. Rather the 
term refers to a small network of east and central African leaders 
whose support of democratization is weak or non-existent. Yet, they are 
seen by many, including the Clinton Administration, as representing a 
set of rulers who are introducing a degree of accountability and 
egalitarianism that will end the African legacy of chaos and despotism.
    As summarized in a recent article by Dan Connell and Frank 
Smyth,\2\ these leaders are a young vanguard of determined 
nationalists. They include Eritrea's Isaias Afwerki, Ethiopia's Meles 
Zenawi, Rwanda's Paul Kagame, and Uganda's Yoweri Kaguta Museveni. 
Lately, Lauent Kabila of the Democratic Republic of the Congo (formerly 
Zaire) has been added to the group.

---------------------------------------------------------------------------
    \2\ Dan Connell and Frank Smyth, ``Africa's New Bloc,'' Foreign 
Affairs, March/April 1998, 80-94.
---------------------------------------------------------------------------

    Nationalists they may be. However, they are more representative of 
the overall fluidity and instability of African politics than 
democratization, which is by no means a stable and enduring process in 
Africa. This can be seen in several trends. For example, while the 
frequency of elections has increased, the quality of elections has 
eroded. Political transitions often mock democracy, following the form 
but not the substance of change. Nigeria, Africa's most populous 
country, annulled elections in 1993 and the military regime has jailed 
or driven into exile political opponents, journalists, and human rights 
advocates. Its political transition, which promises a return to 
civilian rule in October 1998, is a sham. Even where political 
transitions have been successful, there has been backsliding, such as 
in Zambia, or breakdowns, such as in Sierra Leone.
    Generalizations can be deceptive and one must look closely at what 
is actually occurring on the ground. This is especially true of the 
``new generation'' thesis. On the surface, these leaders appear as the 
new saviors of Africa, poised to lead the continent out of 
authoritarianism and chaos. On deeper examination, they act like the 
kind of authoritarians they are purported to oppose, except that they 
are more concerned with economic development and preach self-
discipline.
    My concern is that we are embracing a new generation of strong men 
in the name of post-Cold War stability and economic reform just as we 
propped up the old generation in the name of Cold War stability and 
anti-communism. If so, we could be nurturing the kind of crony 
capitalism in Africa that is undermining Asia and encouraging a replay 
of the pattern of personal rule that has dogged the continent for 
decades.
    The Administration deserves praise for raising the salience of 
Africa. In many ways, they are breaking new ground by trying to 
redefine the US relationship with the continent. Admitting our failure 
to respond to the genocide in Rwanda is a good starting point. The 
African Trade and Opportunity legislation is a further small step in 
that direction. Hillary Clinton, Secretary of State Madeleine Albright 
and President Clinton are bringing more attention to the continent by 
traveling there. This is long overdue. However, while some parts of 
Africa may be on the mend, and the Administration is right to support 
it, the continent as a whole is not yet ripe for renaissance.
    Naturally, we must understand that many of the new leaders are 
rebuilding shattered societies. It is not easy to recover from 
genocide, reverse decades of dictatorship, and patch together collapsed 
states. In calling for democratization, I am not calling for instant 
democracy. Building institutions takes time. Security issues often come 
first. There are few trained personnel to work with and scare resources 
to reconstruct economies. Nonetheless, tolerating human rights abuses 
and calling non-democratic leaders democratic simply because they apply 
favorable economic policies merely invites another round of 
disillusionment.
    Who are these new leaders? These four or five leaders (out of a 
continent of 48 states) have ambitions to remake the continent in their 
image. They came to power, and largely are staying in power, through 
force of arms. They run de facto single party or no party states that 
tolerate little opposition. They are ethically related or allied. Both 
Ethiopia's Meles and Eritrea's Isaias are Tigrean. Uganda's Museveni, 
the oldest of the group who came to power in 1986, is a member of a 
minority ethnic group but he came to power with the assistance of 
Rwandan Tutsis who had fled Hutu domination. With Museveni's aid, these 
same Tutsis drove out extremist Hutus in Rwanda who perpetrated the 
1994 genocide. In turn, they backed the installation of Laurent Kabila 
in the Congo. Thus, these new leaders represent a close-knit network of 
military allies dominated largely by the Tigreans and the Tutsis.
    These men came to power by joining forces to eliminate their 
opponents. Often, this was done with understandable justification--to 
overthrow Mengistu in Ethiopia, to remove Mobutu in Zaire, and to stop 
genocide in Rwanda. But we should recognize that common enemies, not 
common values, unite them. While they do not always agree, they have a 
common strategic vision of the continent and their assertive role in 
it. After Zaire, their next target seems to be Sudan, which supports 
rebel groups in Eritrea, Ethiopia and Uganda. Thus, there is a 
convergence of interests between the US and the alliance formed around 
Khartoum.
    However, there are many problems with this new axis of power. 
First, the alliance has established a standard of behavior that defies 
international norms of human rights. Accusations of severe human rights 
abuses plague Rwanda and the Democratic Republic of the Congo, in 
particular, both of which have been resistant to international 
inspection and monitors. This merely fuels the cauldrons of ethnic 
animosity and suspicion as the cycle of impunity continues. Second, 
these leaders openly defy the international norm of noninterference in 
the internal affairs of other states. True, the world heaved a sign of 
relief when Mengistu and Mobutu were driven from power, and neighboring 
states in Africa have supported rebel activities for decades. What is 
disturbing is that armies are openly crossing borders to topple 
regimes. What are the limits to this military intervention? What 
country will be next on the list? Is this the sort of international 
behavior that we want to encourage?
    Looking broadly at Africa, we may already be seeing the 
consequences of this trend. It is not a new era of accountability and 
egalitarianism that is emerging but an era of home grown hegemonic 
power. Angola, for example, was a pivotal actor in the overthrow of 
Mobutu and now, after years of war with UNITA, has one of the most 
battle-hardened armies in Africa. Nigeria, despite its own internal 
political crisis, has led the West African organization of ECOWAS 
(Economic Community of West African States) to end the civil conflicts 
in Liberia and Sierra Leone. Neither Angola nor Nigeria is a stable 
democracy. Neither is checked by continental or extra-continental 
powers. Thus, we may be witnessing a second scramble for Africa, this 
time by Africans themselves.
    If so, what should the US do? First, the US must reiterate its 
commitment to the principles of democracy and human rights, and deal 
promptly and directly with the difficult problem areas. That means 
meeting with opposition leaders; encouraging more pluralism and open 
debate; pressing for more political inclusion; developing civil 
society; supporting a free press; and refusing to support fraudulent 
elections and phony political transitions. If we promote democracy 
within states, we will be promoting peace among states. Second, the US 
should act before the worse happens. We waited in Rwanda in 1994 and 
are now saying we are sorry we did not act sooner, when we could have 
supported a UN intervention to stop the genocide. In similar fashion, 
we are waiting as the crisis grows in Nigeria. We may likewise regret 
that delay down the road. We talk a lot about preventive diplomacy, but 
do little to act on it.
    Third, we must begin to address the institutional needs of state 
building along with democratization. This means more than pressing for 
elections. It means aiding in the rebuilding of essential state 
institutions, including a professional system of justice, police, and 
civil service. Where appropriate, it could even mean helping to 
professionalize African armies so that they are disciplined and 
restricted in their missions to defending their own borders and doing 
civic action projects, such as building roads, bridges, and schools. We 
could assist Rwanda in rebuilding its courts, jails, and corrections 
service, provided it agrees to provide access to human rights 
organizations. Similar reciprocal relationships could be developed with 
the leaders of the Congo, Uganda, Ethiopia and Eritrea, all of whom say 
that they are committed to instilling accountability. Let us build upon 
that sentiment and test it.
    Fourth, let us not fall into old habits of raising false hopes. We 
tend to over promise and under deliver in Africa. We preach democracy 
and human rights and then not follow through or, worse, gloss over the 
deficiencies when they are apparent. We regret that we had not acted 
sooner to prevent genocide but do nothing to prevent it from happening 
again. If Rwanda or Burundi descends into genocidal violence again, is 
the US any better prepared to stop it?
    Finally, the president's trip to Africa this month represents a 
genuine opportunity to place the US-African relationship on a new 
footing, based on a non-patronizing attitude. To accomplish this, 
however, the President must fulfill the promise of Secretary of State 
Madeleine Albright to ``tell it like it is.'' I sincerely hope that he 
does.

    Senator Ashcroft. Thank you, Dr. Baker.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman. I appreciate 
hearing two of the witnesses. I regret that I can only make a 
statement at this point and cannot hear from the other two. I 
confess on the record that I am not always genuinely 
disappointed when I have to leave a hearing. But never is that 
true of the chairman, who is the chairman of two of my 
subcommittees.
    This is a very special hearing to me, and I really 
appreciate the opportunity to say a few words about it.
    This is an important time in U.S. policy toward Africa. We 
are in between the visit of the Secretary of State and the 
visit of the President. These visits, as both of you have said 
so far, signal what I believe is a serious commitment to the 
African continent.
    In addition, I would also like to note for the record that 
our hearing today comes just less than 24 hours after the House 
of Representatives has debated and passed the historic Africa 
Growth and Opportunity Act. This is another positive sign of 
Africa getting the attention it really, really needs to get.
    This legislation represents an important effort by our 
colleagues in the House to introduce a new paradigm in their 
approach of the U.S. Congress to Africa and I commend them for 
their efforts. I have not reviewed all of the legislation. I do 
have some concerns about it. But the fact is, at least on the 
floor of the House, there was a bill with regard to this part 
of the world and that happens all too infrequently.
    In the context of these events, this hearing takes on more 
significance. The topic of democracy in Africa allows us to 
review the progress of democracy across the continent since the 
end of the World War and it allows us to take a look at what 
has happened with respect to U.S. policy during that time.
    The subtopic, which you both talked about, the new 
generation of African leaders, puts sort of an added twist to 
the subject. Many people have been using this term. You have 
both gone over it with regard to the new leaders, some of the 
new leaders in Africa. They are, by some, held up as model 
leaders who have overcome great odds to achieve relative 
success in their countries.
    But in my view, and I think it is fair to say in the view 
of the first two witnesses, these leaders have exhibited only 
moderate commitments to democratization and human rights. In 
particular, there has been little institutionalization of 
structures that would foster an environment in which democracy 
and human rights can flourish. I think this threatens the 
sustainability of any of the positive moves that may have been 
achieved.
    Because, Mr. Chairman, I am not convinced that the three, 
four, or five leaders that are generally referred to as the 
``new generation of African leaders'' truly represent the best 
that Africa has to offer in terms of democracy, I think we 
should heed the advice of Dr. Ayittey who gave a good focus 
from the historical point of view of the danger of looking at 
Africa and its future with regard to these individuals rather 
than institutions. I think that is a terribly important remark 
so that we do not fall into that trap again.
    True, they have made important contributions to the 
continent. In fact, Mr. Chairman, I think one of the most 
interesting conversations I have had in the 5\1/2\ years as a 
member of this committee is just talking with President 
Museveni about his concepts of political parties, how it is 
different than the Western view, how we cannot assume simply 
because we have a particular kind of party system that this is 
the right system for any African country.
    So there are interesting concepts there. It is true that 
the countries have undergone impressive economic growth. It is 
true that they have managed to establish a level of security 
for their citizens that is essential in the region. These are 
significant. But I do not think that U.S. foreign policy in 
Africa should emphasize these accomplishments without also 
recognizing the important accomplishments made elsewhere.
    So, for me, the question is how do we sort of decide 
whether or not this kind of approach is working. I think that 
the emphasis on institutions and independent judiciary and the 
like is a more instructive one.
    Finally, Mr. Chairman, I just want to return for a second 
to the issue of Nigeria, the continent's largest country. This 
is really going to be a test of whether this is really a new 
era of democratization or whether we are going to continue to 
go backward in one of the absolutely key countries.
    Again, I am glad Assistant Secretary Rice was here. I am 
glad to hear that progress is being made on formulating this 
Nigeria policy. It has been a long time in coming and I really 
would hope it could be in as reasonable and final form as 
possible before the President leaves on his trip so that when 
he is asked questions, which he will be asked, about Nigeria, 
he is able to speak to the problems that exist with regard to 
democratization in Nigeria.
    I thank the chair again very much for letting me interrupt 
this panel.
    Senator Ashcroft. I am grateful to the Senator from 
Wisconsin for his interest. I join him in his commendation of 
the administration and the Congress for expressing a focus on 
Africa, which I think is important and perhaps overdue.
    So thank you very much for helping.
    I now would call on Mr. Salih Booker, who is a Senior 
Fellow for Africa Studies at the Council on Foreign Relations 
here in Washington, DC.
    Mr. Booker, I want to thank you for coming to the 
subcommittee. We have about 38 minutes left. Certainly do not 
take over half of it.
    If you can limit yourself, it will give us time to have a 
discussion. Mr. Booker.

 STATEMENT OF SALIH BOOKER, SENIOR FELLOW FOR AFRICA STUDIES, 
          COUNCIL ON FOREIGN RELATIONS, WASHINGTON, DC

    Mr. Booker. Thank you, Mr. Chairman. Thank you for 
extending an invitation for me to testify before the 
subcommittee today.
    I would like to note at the onset that the Council on 
Foreign Relations does not take an institutional stand on any 
foreign affairs issue, and I am solely responsible for this 
statement.
    Mr. Chairman, you are, no doubt, familiar with the trend 
within the current discourse on Africa which argues that there 
is a nascent renaissance occurring on the continent. My 
colleagues here today have commented on this as well.
    This outlook points to very real changes that have occurred 
across the enormous length and breadth of the continent since 
the dawn of this decade in the areas of conflict resolution, 
economic growth and reform, political change and, indeed, 
democratization.
    These accomplishments are impressive: The end of conflicts 
throughout Southern Africa, Ethiopia, and more recently in 
Liberia, to name a few; the achievement of aggregate growth 
rates of roughly five percent for three years running, and 
mostly multiparty Presidential elections in over two-thirds of 
the Nations in Africa, many of whom have now conducted such 
contests twice during this new era, as well as a large number 
of other national elections for parliaments, local and regional 
legislators, mayors, et cetera.
    So in America, long-time supporters of Africa proclaim that 
the glass is now half full, while the continent's committed 
detractors seize upon the tragedies afflicting a handful of 
traumatized States and declare that the glass is half empty.
    Mr. Chairman, I accept that they are both looking at the 
same glass. When I see a renaissance in Africa, I recognize 
that it is fragile. Where I see chaos still in Africa, I 
recognize that there is hope for rebirth.
    Africa's tenuous renewal is largely self generated; and to 
succeed, however, the 53 sovereign countries of this continent 
of nearly 800 million people will require supportive policies 
from the international community, especially the industrialized 
countries, and particularly the United States.
    Today's hearing on the eve of President Clinton's historic 
first visit to Africa seeks to assess the prospects for 
democracy in Africa, specifically focusing on the so-called 
``new generation of leaders'' in five Eastern and Central 
African States.
    I will try to be brief and to the point. But I do want to 
point out that we are focusing on essentially 5 leaders and 5 
countries out of a total of 53 and out of an enormous 
continent; and that they are, perhaps, reflective of the 
important changes in their particular subregions, but that 
there are momentous changes occurring throughout the rest of 
the continent.
    Much has been written and said about this so-called new 
generation of leaders in the countries we are focusing on 
today, the five that have been named and mentioned already 
(Isaias, Meles, Museveni, Kagame, and Kabila).
    The treatment of this theme is often superficial; because 
the history of each country, the experience of each individual 
leader, and the movements that produced them are unique. But 
with the exception of Laurent Kabila, they do, however, share 
several important characteristics which I will, at the risk of 
a similar superficial generalization, list as follows.
    Each has come to power following a long period of armed 
struggle carried out by disciplined and organized political 
movement that forged generally collective decision making 
practices. They have been criticized here today for coming to 
power through armed struggle, through the gun, so to speak. But 
we have to bear in mind that, indeed, they had no choice in 
these particular cases; and in each case they overthrew 
corrupt, dictatorial regimes.
    The four of them are each considered hard working, serious, 
and dedicated to ensuring that their governments resist the 
corruption that became the cancer of post colonial African 
States. They are also younger and generally more educated than 
the previous generation. They strive to promote increasingly 
self reliant development strategies. They remain capable 
military strategists and have demonstrated a will and capacity 
to act collectively to further national security interests, as 
evidenced by their roles in the overthrow of the genocidal 
Rwandan Government and the dictatorship of Mobutu Sese Seko in 
the former Zaire.
    They are allied in their opposition to the military junta 
and National Islamic Front government in Sudan and in their 
support for the Sudanese People's Liberation Army and the 
National Democratic Alliance of Sudan, of which the SPLA is a 
partner.
    Internally, they are each promoting development strategies 
that acknowledge the importance of developing an indigenous 
private sector, attracting foreign investment, and increasing 
their trading relations with their regional neighbors and the 
global community more broadly.
    This is often referred to as their ``shift from Marx to 
markets.''
    They are committed to a vision of increasing regional 
cooperation and economic integration in their immediate region 
and, ultimately, they have a pan-African vision for the entire 
continent.
    They are experimenting with different forms of governance 
which are not only aimed at maintaining themselves in power but 
also at providing avenues for political and economic 
development within stable national political systems, 
unthreatened by sectarian, ethnic, or communal violence.
    I would argue that they recognize the dangers of economic, 
social, and political exclusion to their own rule and to their 
own dream of transformation.
    I mentioned that I would not list Laurent Kabila in this 
category of the new leaders, this group of five. I think 
Laurent Kabila is more of a ``Rip Van Winkle'' figure, who was 
recently awakened and carried to the capital in Kinshasa from 
which he now rules. To some degree, he is still looking around 
for Tito, Mao, and others in trying to come to grips with the 
modern era.
    I think also in his particular case there is an opportunity 
for the United States to work hard to ensure that the 
transition that is supposed to be taking place in Congo is 
successful. I think if that happens, indeed we may find that 
Laurent Kabila is a transitional figure.
    Mr. Chairman, I and other analysts have often referred to 
the other new leaders, new generation leaders, as ``soldier 
princes.'' This is to denote their military backgrounds but 
also their noble intentions and, perhaps more subtly, to 
suggest their imperial tendency in the style of their 
governments and their regional visions.
    The question posed today is: ``Are they just another form 
of strong man?'' ``Are they simply a more enlightened or more 
pro-capitalist version of the African big-men rulers of 
yesterday?''
    I think Dr. Baker and others have pointed out some of the 
arguments suggesting that they are simply a new generation of 
big-men.
    I, however, believe that I would disagree, though I am 
critical of their lack of political inclusion. But I think 
engaging this new leadership to promote mutual security, 
economic, and political interests in Africa, while a gamble, I 
think it is a gamble worth taking in Eastern and Central Africa 
right now--again, with the exception of Laurent Kabila.
    I think we need to consider the realities of the regions 
and appreciate that these leaders are pursuing a program for 
economic transformation and the promotion of security that we, 
the United States, share. We need not and should not embrace 
individuals. But we can invest in the processes to achieve 
transformation that these governments are promoting. Indeed, we 
can help build the independent institutions that Professor 
Ayittey referred to.
    We cannot and should not abandon our support for democratic 
change and we should invest in those areas that we can.
    These governments have a long-term vision. But they are not 
sure that the United States does. They don't know if the United 
States considers our interests in Africa, our economic 
interests, our security interests, or our political interests 
as vital U.S. national interests that will keep us engaged over 
the long run and prepared to commit the level of resources 
needed to insure that these transformations succeed.
    Mr. Chairman, in closing, let me just argue that we need to 
continue to invest development resources, promote trade and 
investment, and offer support for debt reduction and supportive 
programs with the international financial institutions for 
these very countries as part of a partnership that clearly 
includes democratization as an equal objective to those of 
promoting economic development and security.
    But the scale of our commitment is likely to affect the 
depth of our influence. I think this is a fundamental point 
that I would like to leave with the subcommittee today; that 
is, our engagement with these new leaders in Eastern and 
Central Africa, in particular, is perhaps the best hope for 
supporting this transformation that may occur in those two 
subregions. But we have to demonstrate that our commitment is a 
long-term commitment and if we really want to exercise 
influence over the democratization process, then we have to be 
prepared to demonstrate that we will commit the resources and 
that we consider our interests vital enough that we will remain 
engaged over the long haul.
    I thank you, Mr. Chairman.
    Senator Ashcroft. Thank you very much, Mr. Booker.
    Dr. David Gordon is a Senior Fellow of the Overseas 
Development Council here in Washington, DC.
    I am pleased to introduce you now at this time, Dr. Gordon. 
When you are finished, we will have an opportunity for 
discussion, answering questions, and maybe even discussion 
between panel members to help us clarify views that have been 
expressed. Dr. Gordon.

   STATEMENT OF DR. DAVID F. GORDON, SENIOR FELLOW, OVERSEAS 
              DEVELOPMENT COUNCIL, WASHINGTON, DC

    Dr. Gordon. Thank you, Mr. Chairman. I want to commend you 
and the subcommittee for holding this hearing today and in 
particular for inviting me to testify.
    The views that I express today are my own and do not 
necessarily reflect those of my colleagues at the Overseas 
Development Council. They grow out of work that I have been 
undertaking with Professor Joel Barkan of the University of 
Iowa.
    Africa is in the midst of profound change and America's 
opportunity to affect these transitions and promote democracy 
and development has never been better. While Africa remains in 
some ways a continent in crisis, it is also the site of major 
new experiments in governance, peace building, and free market 
reform.
    It is important, however, to stress that democratization is 
a long-term project in Africa, as it has been everywhere. 
African countries that have embarked upon democracy are 
generally in the early stages of the process. They are not yet 
consolidated democracies.
    There is a new generation emerging all over Africa that is 
committed to a new vision for the continent and its place in 
the world. This emerging cadre of African leaders, be they in 
government, in the private sector, or in other sections of 
civil society, eschew ideology and grand visions and are 
oriented toward pragmatism and problem solving.
    When foreign policy pundits talk about the new leaders of 
Africa, they are really talking about a sub-group of this 
larger phenomenon. I want to associate myself with Salih's 
comments about the importance of the larger phenomenon. But 
these individuals in Central Africa and the Horn of Africa are 
important as well.
    Attention is focused on these five because of the assertive 
attitude they have taken to the outside world and their 
willingness to engage forcefully in regional affairs. Some hail 
them as the new saviors of the continent; others condemn them 
as little more than modernized versions of Africa's traditional 
autocrats.
    I discount both of these views and believe that a more 
nuanced understanding of the new leaders should inform U.S. 
Africa policy.
    For these new leaders, the struggle is not against 
neocolonialism or imperialism but against tribalism and 
corruption. All are committed to sweeping away the failures of 
the past.
    Their experiences in liberating their countries from the 
control of the Mengistus and Amins of Africa has given the new 
leaders a great deal of confidence, often slipping into hubris. 
But a central characteristic of these new leaders is their 
belief in the responsibility of Africans to solve their own 
problems.
    The new leaders also share a skepticism toward the outside 
world, a view shaped by the failure of the international 
community to sustain effective responses in both Somalia and 
especially in the 1994 genocide in Rwanda.
    But there is also considerable variation among these 
leaders.
    First of all, the so-called new leaders of Africa are not 
all that new. Museveni has been in office for more than a 
decade; Meles and Isaias are approaching seven years; and, 
while Kabila is new in power, I agree with Salih that he 
represents a political style that harks back to earlier 
generations of African leaders.
    While all are pragmatic and have given up what was an 
earlier commitment to Marxism, only Museveni has really 
delivered a comprehensive set of market driven economic 
reforms.
    On the dimension of political stability, only Isaias 
governs a truly stable country with a broad-based political 
regime. While Meles and Museveni have brought peace to their 
countries, they have not yet won legitimacy in large sections 
of their population.
    Kagame dominates a country which remains at war, while 
Kabila has yet to reestablish a national political system for 
the Congo, and who knows if he has either the capacity or the 
will?
    While none are democrats in our sense of the term, 
democratization has proceeded in varying paces in several of 
the countries. Free and fair elections have been held in Uganda 
to return Museveni to power and elect a parliament. Elections 
in Ethiopia have not been fully free, while Eritrea, for all 
practical purposes, is a one party State, albeit an apparently 
popular one.
    At the center of the debate about democracy in U.S. Africa 
policy is the question of what approach the United States 
should take toward the new leaders.
    I believe that we should be broadly encouraging and 
supportive of the new leaders. While these individuals are not 
as morally compelling as Nelson Mandela, they do bring a new 
courage, energy, and honesty to the African scene. But at the 
same time, we must keep our eyes open and treat them as mature 
partners, calling them to account when they err, but in a 
manner that is mindful that we do not have a monopoly on 
wisdom.
    We need to be particularly concerned that the political 
scene in all of these countries remains dominated by 
individuals rather than institutions. The new leaders rule over 
regimes that are brittle, and thus, vulnerable. They are likely 
to evolve either into more inclusive polities or slip back into 
the authoritarianism of the eighties and before.
    Such a return to authoritarianism with its attendant loss 
of legitimacy risks State collapse and civil war, and that is 
why it is important for the United States to maintain a focus 
on democracy as a goal of its policy and diplomacy in these 
States.
    That is also why democratization is in the self-interest of 
these leaders.
    We must be careful to not lose sight of these realities 
where other foreign policy goals are at stake. While it is in 
our interest to work closely with Ethiopia and Uganda to deal 
with Sudan, the viability of such a policy is at risk as long 
as neither Meles nor Museveni preside over inclusive and stable 
polities.
    Similarly, in the Great Lakes, downplaying democratization 
in Rwanda and Congo risks putting the United States in a 
position of uncritical support of narrowly based regimes that 
will not bring stability to these countries.
    The choice between democracy promotion on the one hand and 
a concern for regional stability on the other is, Mr. Chairman, 
a false one. The U.S. can and must pursue both. The new leaders 
seek mature relations with us, not the paternalism of the past. 
We should take the same approach to them.
    Will Meles or Museveni not join with the United States to 
contain the Sudan because the U.S. continues to urge further 
democratization in these countries? Of course not. They are not 
doing it to please us. They are doing it because it is in their 
own interests.
    How can the U.S. translate these concerns into an effective 
policy vis-a-vis the new leaders?
    Consider the particular case of U.S. policy toward Uganda. 
Some argue that the United States should not push Museveni to 
deepen the democratization process. What I am suggesting is 
that, while broadly cooperating with and supporting the 
Museveni Government, the U.S. should maintain a significant 
dialog and program focused on the need to deepen the 
democratization process in order to sustain Uganda's remarkable 
progress.
    Issues to be addressed might include strengthening the rule 
of law and transparency and accountability of government, 
making decentralization, a policy commitment of that 
government, meaningful, and insuring that electoral competition 
exists no matter what the political party framework the country 
adopts.
    Can such a policy work? In looking at how to approach the 
new leaders in the Great Lakes and the Horn, U.S. policy makers 
need to review their experience in dealing with a similar 
figure in West Africa, Ghana's Jerry Rawlings.
    In the late 1980's, Rawlings, who had come to power through 
a military coup, undertook a tough economic reform program with 
the support of the IMF and the World Bank. The U.S. strongly 
supported this effort but continued to engage the Rawlings 
regime on the need to move to a more open and broad-based 
political system.
    In the early 1990's, Rawlings established a multi-party 
system. But the first elections failed to win the legitimacy of 
large segments of the population. In response, the United 
States, while continuing its support of Rawlings' government, 
engaged with the Ghanaian opposition to explore means of 
bringing them back into the political process. This led to a 
very large effort to improve the electoral machinery in Ghana.
    Ghana's second elections were held in 1996; and, while the 
outcome was quite similar to the first, this time they gained 
broad legitimacy and have led to the active participation of 
the opposition in parliament and a broad and open political 
debate in the country about a wide range of issues.
    By having a steady policy of engagement with a dynamic new 
leader but not losing sight of the importance of political 
reform and democratization to sustain economic policy reforms 
and growth, the U.S. has played a positive role in Ghana's 
evolution.
    Many of today's new leaders in the Great Lakes and the Horn 
have political views similar to those of Rawlings seven or 
eight years ago. We should shape an approach to them that 
learns from our successful experiences in Ghana.
    In two weeks, Mr. Chairman, President Clinton will have the 
opportunity to directly engage many of Africa's new leaders. 
The President will be carrying a message of partnership and of 
the need for more mature relations based on mutual self-
interest.
    Central to this partnership should be and I believe will be 
a continuing commitment to the principle of democracy and 
active promotion of democratization.
    The arrival of Africa's new leaders represents an historic 
opportunity for the continent. Africa's cycles of despair can 
be broken. But it will require a commitment to vision, 
engagement, and pragmatism by our leaders in the promotion of 
democracy in Africa.
    Thank you very much.
    [The prepared statement of Dr. Gordon follows:]

                 Prepared Statement of David F. Gordon

    I want to thank Chairman Ashcroft, Senator Feingold, and other 
members of the subcommittee for inviting me to testify today on the 
topic of African democracy and the new leadership which is emerging in 
many states in Africa. The views that I express this afternoon are my 
own and do not necessarily reflect those of my colleagues at the 
Overseas Development Council or its Board of Directors. They grow out 
of work that I have been undertaking with Professor Joel Barkan of the 
University of Iowa and the U.S. Institute of Peace.
    Events on the ground in Africa and new political initiatives in 
this country are reshaping U.S.-Africa relations and creating new 
possibilities for more productive engagement. Africa is in the midst of 
profound change, and America's opportunity to affect these transitions 
and promote democracy and development has perhaps never been better. 
The timing of these hearings is propitious, on the eve of the most 
extensive Presidential visit to Africa ever and amidst congressional 
debate over the most important piece of legislation pertaining to 
Africa in many years, the Africa Growth and Opportunity Act. I commend 
the subcommittee for showing foresight to open hearings on these 
matters, so we might more fully understand how to embrace these new 
opportunities to promote U.S. interests in African democracy, political 
stability, and economic self-reliance.
    The tidal wave of change which swept over Europe at the end of the 
Cold War seven years ago rippled across Africa as well. While the 
transformation has not been as sudden or dramatic as in Europe, the 
changes have been equally profound. Long-suppressed political energies 
have been released and old alliances have been reordered. Several 
longstanding civil conflicts have been resolved. In some countries, new 
forms of conflict have been released. But, perhaps most importantly, a 
new style of leadership has emerged. This new generation of leaders is 
more independent, more assertive, unfettered by the blinders of Cold 
War ideology, and pragmatically committed to economic and political 
reform. While changes are evident across virtually the entire 
continent, they are most striking and challenging in the Horn of Africa 
and the Great Lakes States--although I should hasten to add that by 
``the Great Lakes States,'' I refer to the likes of Uganda and Rwanda 
and not Vermont.
The African Balance Sheet
    To many, the budding of democracy and economic rebirth in Africa 
has gone unnoticed: through the eyes of the media, images of political 
and economic trends on the African continent are overwhelmingly 
negative. War, famine and chaos appear to be the order of the day. The 
collapse of the Mobutu regime in Zaire, the toppling of the elected 
president in the neighboring Republic of Congo, continued ethnic 
conflict and tension in Rwanda and Burundi, the overthrow of a recently 
elected government in Sierra Leone, and deadly political strife in 
Kenya all made their way into the headlines last year.
    But the media ignore much of the current reality in Africa. Good 
things are happening in Africa in addition to the not so good; and not 
in isolated instances. On the whole, Africa is better off, both 
economically and politically, than it was at the end of the Cold War, 
when the U.S. began earnest effort to promote economic and political 
reform. The continent is no longer an unvarigated wasteland of 
kleptocratic regimes, turmoil, and economic stagnation. While we cannot 
ignore the persistence of failed states such as Somalia, nor oppressive 
authoritarian rule as in Nigeria and the Sudan, nor continual ethnic 
conflict and political unrest in parts of Central Africa, all African 
countries must not be lumped together and pronounced disasters.
    There are now ``many Africas.'' Indeed, the defining characteristic 
of contemporary Africa is the increasing differentiation among states. 
While Africa remains, in some ways, a continent in crisis, it is also 
the site of major new experiments in governance, peace-building and 
free market reform.
    Since 1990, more than three dozen African states have conducted 
multi-party elections, reflecting significant political liberalization 
and democratization across the continent. While elections are the most 
visible manifestations of democratization, equally important are 
significant improvements in the rule of law, civil liberties--
particularly the strengthening of civil society and the reemergence of 
a free press-and a decline in human rights abuses. It is important, 
however, to stress that democratization is a long-term project in 
Africa, as it has been every where. African countries that have 
embarked upon democracy are generally in the early stages of 
democratization--the transition from authoritarian rule. Many have what 
might be called ``hybrid'' regimes, which combine democratic and non-
democratic elements. They are not yet consolidated democracies.
    Despite continuing conflicts, especially in Central Africa, a 
recent study by the Stockholm International Peace Research Institute 
found that there is in fact less conflict on the continent today than 
in the last years of the Cold War. South Africa, Mozambique, Chad, 
Ethiopia, Eritrea and Namibia and hopefully even Liberia are among the 
countries having resolved deadly conflicts.
    Aggregate economic growth rates for Africa in the past three years 
are more than double those of the previous decade, and no longer lag 
dramatically behind the rest of the developing world. Trade and 
investment in Africa is growing rapidly after an almost continuous 
decline since the early 1970s. The IMF estimates that foreign private 
capital investment in Africa, which had all but dried up in the 1980s, 
grew to nearly $10 billion per year in 1996. And Africa's social 
indicators show that progress is not confined to small privileged 
elites. Average life expectancy has increased from 40 to 50 in the past 
generation while literacy rates have doubled to over 50 percent.
    Perhaps most importantly, there is a new generation emerging all 
over Africa that is committed to a new vision of the continent and its 
place in the world. This emerging cadre of African leaders--be they in 
government, the private sector or other sections of civil society have 
been heavily influenced by the technological revolution and the global 
trends towards democratic governance and market-based, private sector 
focused economic policies. They eschew ideology and grand visions, and 
are oriented towards pragmatism and problem solving. Many have spent a 
good deal of time overseas, most often in the West, and seek to 
translate effectively the benefits of global technology and culture 
into their local idioms.
Africa's ``New Leaders''
    Who are these ``new leaders?'' If one includes the leaders of all 
African countries that have experienced a change of government or 
regime since 1990, the list of ``New Leaders'' would number over 
thirty, and include such dissimilar individuals as Charles Taylor of 
Liberia, Nigeria's Sani Abacha, Zambian Frederick Chiluba and South 
Africa's Nelson Mandela, leaders with little in common in terms of 
their personal agendas or visions for their countries or for Africa.
    A different definition of ``New Leaders'' focuses on the broad 
generational change described above. And when foreign policy pundits 
talk about ``the new leaders of Africa'' they tend to focus on four or 
five individuals who rule in Central Africa or the Horn: Meles Zanawi 
of Ethiopia, Isaias Afeworki of Eritrea, Yoweri Museveni of Uganda, 
Paul Kagame of Rwanda and (perhaps) Laurent Kabila of the Congo.
    Attention has focused on these five because of the assertive 
attitude they have taken towards the outside world and their 
willingness to engage forcefully in regional affairs, such as the 
overthrow of President Mobutu of Zaire. Some hail them as the new 
saviors of Africa; others condemn them as little more than a modernized 
version of Africa's traditional autocratic ``big men.''
    I discount both of these views, and believe that a more nuanced 
understanding of these ``New Leaders'' must inform U.S. Africa policy.
    What really sets this group apart is not their ``newness'' or what 
they are for, but what they are against. For these ``New Leaders'' the 
struggle is not against neo-colonialism or imperialism, but against 
tribalism and corruption. They have inherited nations devastated by 
corrupt, statist autocrats who wrecked their economies and impoverished 
the citizenry. All are committed to sweeping away the failures of the 
past including the political class associated with these failures in 
their respective countries.
    Their experience in liberating their countries from the control of 
the Mengistus and Amins of Africa has given the ``New Leaders'' a great 
deal of confidence, often slipping into hubris. These leaders share a 
powerful confidence in their own judgments and do not take advice 
easily. A central characteristic of these ``New Leaders'' is their 
belief in the responsibility of Africans to solve their own problems. 
All desire to assert African control of the continent's destiny, and 
all reject a deferential attitude toward outsiders and the advice they 
proffer. While Africa's leaders have traditionally sought more aid, the 
``New Leaders'' are more concerned about aid dependence, and pride 
themselves on projects completed without foreign assistance.
    The ``New Leaders'' also share a skepticism towards the outside 
world, a view shaped by the failure of the international community to 
support them in their fights against the ancien regimes as well as its 
inability to sustain effective responses in both Somalia and, 
especially, in the 1994 genocide in Rwanda. This has led the ``New 
Leaders'' to strike out on their own, an attitude most vividly 
demonstrated by their willingness to respond to regional security 
issues--violating the heretofore sacrosanct OAU doctrine of African 
non-intervention in their neighbors' affairs.
    The conventional wisdom about the new leaders is that all have 
embraced economic reform, re-established political stability and 
reduced human rights abuses, but resisted multiparty democracy, and 
that this strategy has achieved dramatic results. As such, they 
deserve, and indeed have received, the support of the international 
community because they are truly committed to putting their own houses 
in order.
    But on closer inspection, one also finds considerable variation 
among the chosen five. First of all, the so-called ``new'' leaders of 
Africa are not all new. Museveni has been in office for more than a 
decade; Meles and Isaias are approaching seven years. While Kabila is 
new in power, he represents a political style that harks back to 
earlier generations of African leaders.
    In respect to economic reform and the establishment of a strong 
free market economy, while all are pragmatic and have given up most of 
what was an earlier commitment to Marxism, only Museveni has really 
delivered a comprehensive set of economic reforms. The others, while 
they reject the old-state run economic model, retain the tendency to 
distrust the capitalists. The ``New Leaders'' do appear to all 
subscribe to the notion that economic development precedes democracy, 
and reject the view that democratization and development are mutually 
supportive processes that occur at roughly the same time.
    On the dimension of political stability, only Isajas governs a 
truly stable country with a broad based political regime. While Meles, 
Jsaias and Museveni have brought peace to their countries, they have 
not yet won legitimacy in large sections of the population. Kagame 
rules a country which remains at war, while Kabila has yet to re-
establish a national political system for the Congo, and there are 
serious doubts whether he has the inclination to do so.
    On the dimension of managing ethnic conflict, their approaches also 
vary. Ethiopia is committed to ethnic-based decentralization; while 
Uganda has established decentralized structures of governance to 
counter ethnic conflict. But in both cases it remains to be seen 
whether a meaningful devolution of power will be made to sub-national 
units of government. Isaias does not face serious ethnic issues while 
Kagame and Kabila are yet to undertake earnest efforts to deal with the 
difficult ethnic issues in Rwanda and the Congo.
    The ``New Leaders'' also have very different attitudes towards 
democracy. While none are ``democrats'' in our sense of the term, 
democratization has proceeded in varying paces in several of the 
countries. Free and fair elections have been held in Uganda to return 
Museveni to power and elect a new parliament. Elections in Ethiopia 
have not been fully free, while Eritrea is for all practical purposes a 
one party state, albeit a popular one. In Rwanda and Congo, the ruling 
regimes have made verbal commitments to democratic elections, but 
political circumstances do not seem to be moving in that direction.
Democratization and U.S. Africa Policy
    The mixed record of democratization in Africa and the emergence of 
regimes led by individuals who appear to be committed to effective 
governance and real economic development, but not necessarily Western-
style democracy, has led some analysts and foreign policy makers to 
question the wisdom of democracy and democracy promotion as core themes 
of U.S. Africa policy. The skepticism about prospects for democracy and 
democracy promotion is being generated by a curious convergence of 
perspectives between those who continue to view Africa as a continent 
of economic stagnation and war, and those who are inclined to gloss 
over the less-promising details of the African reality.
    It is a skepticism that is also part of a broader intellectual 
disenchantment with the so-called ``third wave'' of democratization as 
represented by Robert D. Kaplan's recent Atlantic Monthly article 
entitled ``Was Democracy Just a Moment?'' and Fareed Zakaria's ``The 
Rise of Illiberal Democracy,'' in the December, 1997, issue of Foreign 
Affairs. These critics of democracy selectively seize on the downside 
manifestations of democratization and conclude that American support 
for democratization has made things worse rather than better, and 
therefore is not in the U.S. interest.
    The critics of US. efforts to promote democracy in Africa base 
their argument on a combination of four assumptions:
    First, that the social and economic conditions in Africa are not 
propitious for the sustainability of democracy; and that economic 
development is a precondition for democratization on the continent. In 
Kaplan's words, ``democracy emerges successfully only as a capstone to 
other social and economic achievements.''
    Second, that economic development and the reconstitution of failed 
states--the preconditions for democracy--are advanced most rapidly by a 
period of enlightened authoritarian rule. A 1997 Time article described 
Uganda's President Yoweri Museveni as the Lee Kuan Yew of Africa, 
highlighting the fact that President Lee brought prosperity to 
Singapore through a combination of effective economic policies and 
autocratic politics and suggesting that Museveni was doing the same. 
Museveni himself has argued that his ``no-party'' model is more attuned 
to African realities than is multi-party democracy.
    Third, that aggressive promotion of democracy runs at cross-
purposes with other, more important foreign policy goals, especially in 
Central Africa. These goals include the establishment of stable and 
effective governments; strengthening regional security arrangements, 
especially among the ``frontline states'' bordering Sudan; preventing 
the re-emergence of genocide; and more effectively integrating Africa 
into the global economy.
    Fourth, that democracy promotion is an exercise of forcing Western 
values on Africa, a form of cultural imperialism that is both self-
defeating (What is the point of holding an election if all that happens 
is one ethnic-based regime replaces another?) and is rejected by the 
``New Leaders'' who are committed to finding their own forms of 
democracy.
    To what extent does such skepticism shape U.S. Africa policy? To 
what extent should it?
    Although Secretary Albright and other Administration officials have 
reiterated their support for democratization in Africa, questions 
persist about the status of democracy in U.S. Africa policy. In 
particular, human rights and pro-democracy groups have continued to 
criticize the Clinton Administration, especially in regard to the Great 
Lakes region, and believe that the Administration's new activism 
regarding Africa will lead to economic and strategic considerations 
that effectively crowd out a concern with democracy and human rights. 
During Albright's December trip to Africa, her frequent statements on 
the need for the United States to ``listen more and talk less'' was 
widely interpreted in the media, both in Africa and in the United 
States, as marking a step hack from the active support for democracy 
that has been a hallmark of U.S. Africa policy since the fall of the 
Berlin Wall.
    I believe that the new skepticism about democracy in Africa and the 
four assumptions on which it is based are unwarranted and reflect a 
distorted understanding of the African experience.
    Is successful economic development a precondition for democracy? In 
Africa, the return to economic growth has been inextricably linked to 
political reform. Most, albeit not all, of the countries that are now 
experiencing positive rates of economic growth are countries that have 
embarked on democratic transitions, or where there has been genuine 
political liberalization. This is not surprising given the failure of 
authoritarian rule to have a positive developmental impact for most of 
Africa's independence period. It has been asserted many times that 
economic reform and democratization cannot occur simultaneously, but 
that is precisely what has been happening all across the continent. 
Moreover, those countries which have made the strongest commitment to 
democracy and the rule of law--Botswana, Mauritius, South Africa and 
Ghana--have been among the most successful in attracting foreign direct 
investment to their non-mineral sectors.
    Is ``enlightened authoritarianism,'' in the image of Lee Kuan Yew, 
the path for progress in Africa? Uganda in fact represents a more 
complicated case than superficial comparisons reveal. Uganda's 
sustained economic growth rate of seven to nine percent in recent years 
cannot be attributed to enlightened authoritarianism. While President 
Yoweri Museveni has encouraged the comparisons between himself and Lee 
Kuan Yew of Singapore, the analogy is stretched. Museveni's 
``movement'' based government does not lend itself neatly to the 
authoritarian label. Uganda has one of the freest presses in Africa. 
Dissent is permitted to a much greater extent than in Singapore. 
Despite the lack of a multi-party system, Uganda under Museveni has 
experienced a substantial measure of political liberalization matching 
that of most African countries under more formal multi-party rule.
    But the presumed link between--good economic performance and the 
rise of enlightened authoritarian rule really falls apart when one 
looks at which African countries are at the forefront of economic 
growth. The countries with the highest aggregate growth rates over the 
long-term are Botswana and Mauritius, two countries with the longest 
record of democratic rule. More recently, positive growth rates have 
returned to Benin, Ghana, Mozambique, and South Africa, countries where 
the resurgence of democracy has been the strongest. Indeed, the link 
between relatively good economic performance and democracy in Africa 
goes back decades. From independence through the 1970s, those 
relatively open and politically competitive African countries--
Botswana, Cote d'Ivoire, Senegal, the Gambia and Kenya--were among the 
continent's best long-term economic performers.
    Does promoting democracy endanger more important U.S. security 
interests in Africa? Because neither economic development nor political 
stability are likely to occur in Africa without accountable and 
inclusive government, democratization, and particularly democratic 
consolidation, is a critical component of viable governance. The United 
States should therefore not back away from this process, but continue 
to nurture it. We must be careful not to lose sight of this reality 
where other foreign policy goals are at stake. This is particularly 
true in central Africa where the U.S. seeks to contain the Sudan, bring 
peace to the Great Lakes, and support the reconstruction of the Congo. 
While it is in our interest to work closely with Ethiopia and Uganda to 
deal with Sudan, the viability of such a policy is at risk so long as 
neither Meles nor Museveni preside over inclusive and stable polities. 
Similarly, in the Great Lakes, downplaying democratization in Rwanda 
and Congo risks putting the U.S. in a position of uncritical support of 
narrowly-based regimes that will not bring stability to these 
countries.
    The choice between democracy promotion on the one hand, and a 
concern for regional stability on the other, is largely a false one. 
The U.S. can and should pursue both. This will no doubt create some 
tensions, but there is no reason to believe that promotion of democracy 
will undermine the bilateral relationship with the ``New Leaders'' or 
compromise other foreign policy goals. The ``New Leaders'' seek mature 
relations with the U.S., not the paternalism of the past. We should 
take the same approach towards them. Will Meles or Museveni not join 
with the US to contain the Sudan because the U.S. continues to urge 
further democratization in their countries? Of course not. They aren't 
doing it to please us, but because it is in their own interests. Will 
the vigorous promotion of democracy in these countries make life more 
complicated for our ambassadors there? Probably, but articulating the 
complexity and rationale for U.S. policy is what professional diplomats 
are paid to do.
    Is democracy a Western, alien value, unsuited to African soil? In 
Africa, as elsewhere where democratization has been most vigorously 
resisted, the argument that democracy is an alien value is often merely 
a justification for the continuation of authoritarian rule. Indeed, 
this rhetoric harks back to the. initial rejection of liberal democracy 
and the search for ``African democracy'' by the early architects of 
one-party rule during the 1960s such as Kwame Nkrumah in Ghana and 
Julius Nyerere in Tanzania. Those who argue that democratization in 
Africa is an alien imposition forget that the current demand for 
democracy across the continent has come primarily from within by those 
who challenged incumbent authoritarian regimes in the streets (e.g. in 
Benin, Ghana, Kenya, Nigeria, South Africa and Zaire). External actors 
played only a supportive role in the initiation of Africa's recent 
political evolution.
    If allowed to determine U.S. Africa policy, skepticism towards 
democracy and democratization will result in outcomes that are in 
neither the U.S. nor Africa's interest. In particular, stepping away 
from a commitment to democracy in Africa will lead the United States 
back to a Cold War-like policy of supporting regimes out of short-term 
tactical considerations. Such a policy will undermine Africa's 
democratic forces, and result in less rather than more progress on 
political consolidation, conflict-resolution and economic development. 
Having become serious about democratization since the end of the Cold 
War, are we to retreat from this goal just when the policy of its 
promotion is bearing fruit? I submit that the answer should be an 
emphatic ``no.''
    The failure to stay the course in respect to democracy promotion 
also risks abandoning those individuals and groups that have fought 
hard to bring democracy to their countries, people who have often 
pursued their quest with tangible support, both technical and 
diplomatic, from the United States. This will undermine the credibility 
of past and current policies in such countries as Kenya where we have 
worked hard to nurture a democratic transition in the face of a hostile 
regime, but where much progress in the form of a vibrant civil society 
and the beginning of constitutional reform, has nonetheless been made. 
It may also generate a backlash against the U.S. and other Western 
governments from Africa's democrats.
Dealing With the ``New Leaders''
    At the center of the debate about democracy in U.S. Africa policy 
is the question of what approach the U.S. should take towards the ``New 
Leaders'' in the Great Lakes and the Horn of Africa. Following her trip 
to Africa, critical editorials in both The Washington Post and The New 
York Times took Secretary Albright to task for too tight an embrace of 
these regimes and their leaders.
    I believe that we should be broadly encouraging and supportive of 
the ``New Leaders.'' While these individuals are not as morally 
compelling as Nelson Mandela, they do bring a new courage, a new energy 
and a new honesty to the African scene. But at the same time, we must 
keep our eyes open and treat them as mature partners, calling them to 
account when they err, but in a manner that is mindful that we do not 
have a monopoly on wisdom.
    We need to be particularly concerned that the political scene in 
all of these countries remains dominated by individuals rather than 
institutions. Continued restrictions on civil society combined with 
limitations on multipartyism will make real accountability ultimately 
impossible. The ``New Leaders'' rule over regimes that are brittle and 
thus vulnerable. They are likely to evolve either into more inclusive--
and more democratic--polities or slip back into the forms of 
authoritarian rule that characterized Africa throughout the 1980s. And 
such a return to authoritarianism with its attendant loss of legitimacy 
risks state collapse and civil war. That is why it is important for the 
United States to maintain a focus on democracy as a goal of its policy 
and diplomacy in these states. That is also why democratization is in 
the self-interest of those in power.
    Consider these realities in the states of the Great Lakes and the 
Horn, which are high priorities for the Clinton Administration:
    In Uganda, with the northern third of his country fertile ground 
for rebellions his army finds difficult to control, Museveni must find 
a way to incorporate the people of the region into the national polity 
in the same way he earlier reached out to the Baganda to consolidate 
his regime in the south. After nearly twelve years in power, he must 
also build institutions that will facilitate a smooth transfer of power 
to a successor.
    In Ethiopia, Meles must likewise craft appropriate mechanisms--
perhaps via that country's nascent federal structures--to bring the 
currently-alienated Amhara and Oromo (the country's two largest ethnic 
groups) back into the political process if long-term stability is to be 
established.
    In Rwanda, the prospects for stability turn on whether the Tutsi-
based minority regime led by Kagame can deal with the Hutu majority 
politically rather than militarily. The rural areas are now nearly 95 
percent Hutu, a context that makes successful counterinsurgency 
operations almost impossible without an effective political component. 
This may ultimately require the negotiated partition of Rwanda into 
designated regions for each ethnic group. But the continued reliance on 
a primarily military option by the minority regime will result in more 
carnage and perhaps even its collapse.
    Similarly in the Congo, Laurent Kabila may have filled a vacuum at 
the center, but his regime must reach an accommodation with regional 
political elites who command extensive followings in Kivu, Kasai and 
Katanga, or become the victim of its own hubris.
    The bottom line is that in none of these cases is stability or 
prosperity likely to be realized on a long-term basis without the 
establishment of more liberal and inclusive polities in which a 
diversity of interests bargain, share, and possibly alternate power 
with each another.
    How can the United States translate these concerns into an 
effective policy vis-a-vis the ``New Leaders?'' Consider the particular 
case of U.S. policy toward Uganda. Some argue that the U.S. should not 
push Museveni to deepen the democratization process, either because 
authoritarianism is just what Uganda needs, or because Museveni has 
already put Uganda on the path toward democracy, albeit one that 
differs from the Western model. What I am suggesting is that, while 
broadly cooperating with and supporting the Museveni regime, the U.S. 
should maintain a significant dialogue and program about the need to 
deepen the democratization process in Uganda in order to sustain that 
country's remarkable progress. Issues to be addressed might include: 
strengthening the rule of law and transparency and accountability of 
government, making decentralization meaningful, and ensuring electoral 
competition no matter what political framework the country adopts.
    Can such a policy work? In looking at how to approach the ``New 
Leaders'' in the Great Lakes and the Horn, U.S. policy-makers need to 
review their experience in dealing with a similar figure in West 
Africa, Ghana's Jerry Rawlings. In the late 1980s, Rawlings, who had 
come to power through a military coup, undertook a tough economic 
reform program with support of the IMF and the World Bank. The U.S. 
strongly supported this effort, but continued to engage the Rawlings 
regime with the need to move to a more open and broad-based political 
system, echoing the views of Ghana's strongly democratic middle class.
    In the early 1990s, Rawlings established a multi-party system, but 
the first elections, held in 1992, failed to win the legitimacy of 
large segments of the population. In response, the U.S., while 
continuing its support of the Rawlings government, engaged with the 
Ghanaian opposition to explore means of bringing them back into the 
political process. This led a very large and multi-year effort by USAID 
to improve the electoral machinery in Ghana. Ghana's second elections 
were held in 1996. While the outcome was quite similar to the first, 
this time they gained broad legitimacy and have led to the active 
participation of the opposition in parliament and a broad and open 
political debate about a wide range of issues.
    By having a steady policy of engagement with a dynamic new leader, 
but not losing sight of the importance of political reform and 
democratization to sustain economic policy reforms and growth, the U.S. 
played a positive role in Ghana's evolution. Many of today's ``New 
Leaders'' in the Great Lakes and the Horn have political views similar 
to Rawlings' seven or eight years ago. We should shape an approach to 
them that learns from our successful experiences in Ghana.
    In both in the Clinton Administration and in the Congress, there is 
a new and welcome engagement with Africa. In two weeks, President 
Clinton will embark on an extended trip to Africa in which he will have 
the opportunity to directly engage many of Africa's ``New Leaders.'' 
The President will be carrying a message of partnership and of the need 
for more mature relations based on mutual self-interest. Central to 
this partnership should be, and I believe will be, a continuing 
commitment to the principle of democracy and active promotion of 
democratization.
    Sustaining this dimension of U.S. foreign policy is critical at the 
very time when democracy is an increasingly established fact in parts 
of the continent, and the potential of its emergence elsewhere is 
greater than ever before. The arrival of Africa's ``New Leaders'' 
represents an historic opportunity for the continent. Africa's cycles 
of despair can be broken. But it will require a commitment to vision, 
engagement and pragmatism by our leaders in the promotion of democracy 
in Africa.

    Senator Ashcroft. We thank each of you for coming. I am 
grateful to you.
    Dr. Baker, I think it was your testimony before the 
subcommittee that raised questions about the quality of some of 
the elections. That raises an issue for me.
    It seems to me that we are trying to figure out to what 
degree improved democratization is authentic and to what degree 
it might be just a facade--whether or not we are dealing with 
strong men in sheep's clothing, so to speak, who have learned 
to be slick enough to have the form of democracy if not the 
substance thereof.
    Could you comment on that? Is it your view that 
inadequacies in reform have been overlooked in the effort to 
satiate the demand for genuine democratic change?
    Dr. Baker. Yes, I would be happy to.
    I think that we have tended, first of all, to stress 
elections too much, sometimes, in Africa, to the exclusion of 
really looking at them. We have made some very bad mistakes.
    In the case of Liberia, for example, in previous 
administrations, we had sanctified what was clearly a bad 
election in Liberia, which was the beginning of the collapse of 
the Liberian State. When you get a government that goes through 
the form but not the substance of legitimization, you are not 
helping the country at all.
    We have gotten more of those today. There have been a lot 
of elections which have been flawed. We have international 
monitors who come out and say well, ``they are reasonably free 
and fair'' rather than that ``they are free and fair.''
    I think that is an adequate characterization of some 
elections and it is not so bad to say that if you have the long 
view that democratization is a process and sometimes has to be 
looked at as a staged process.
    But we should not just look at elections. We should really 
look at the birth of civil society, which I think is the really 
good news in Africa recently, and the pressures from below.
    For example, to get back to elections, when there are 
genuine elections in Africa, one of the most encouraging things 
for me is that there have enormously high turnouts in Africa, 
extraordinary turnouts, with people coming from the rural 
areas, standing in the hot tropical sun, sometimes for days, to 
be able to cast their votes.
    To me, that shows that there is a real demand for 
participation.
    I think we should stress elections as a vital step, but not 
the only step, for transition regimes. As we discussed before, 
I think when you have hijacked electoral processes, as in 
Nigeria, you deepen a crisis. There is where you are going to 
have to go back to some form of electoral process to put things 
right.
    Senator Ashcroft. Mr. Booker, you said that we needed to 
demonstrate a long-term commitment, that we need to show that 
we are prepared to stay there and that we need to commit the 
level of resources to insure success.
    Do you imply by that the ultimate success of Africa is in 
the hands of the United States and its resources and not in the 
hands of Africans?
    Do you also imply that there is no behavior on the part of 
individuals in Africa that should cause us to disengage? Dr. 
Gordon also used the term ``engagement.''
    I guess what I am struggling with is if, to insure the 
level of resources, to insure success, that sounds to me like a 
blank check. It does not seem to be related, necessarily, to 
the development, say, of institutions, as Dr. Ayittey called 
for.
    Would you clarify that. Frankly, as others of you want to 
chime in, please do so.
    Mr. Booker. Thank you, Mr. Chairman.
    If I could briefly comment on the last question of the 
quality of elections, because I think it is critical, an 
American writer once had a title called ``Hunting is not those 
heads on the wall.'' I think that is a critical problem in 
Africa, that it is the process leading up to the elections, as 
opposed to the actual ``shoot'' itself.
    We are experiencing that now in Nigeria and we recently 
experienced it in Kenya, where one could safely predict the 
outcome of the elections because the process leading up to it, 
the year ahead of the election, was so skewed, the environment 
so constrained for any real political competition to occur that 
the conclusion was a foregone conclusion.
    The holdover despots that still do exist in Africa have 
learned this game very well. That is one of the real problems 
with promoting democratization, insuring that the process 
leading up to elections does allow for a real competition.
    On the specific question you addressed to me, I do not 
intend to suggest that Africa's future rests with the United 
States' commitment of resources or a long-term diplomatic 
commitment, or any other country's. It truly does rest with 
Africans themselves and that is one of the encouraging features 
of at least four of these new leaders, as they are called.
    I do, however, believe that our relationship with this new 
generation and our ability to influence the course of events 
and their commitment to democratization will very much be 
affected by our willingness to demonstrate the depth of our 
commitment, and part of that will have to do with the resources 
that we commit, whether it is development cooperation, whether 
that funding is spent to help strengthen and reform 
judiciaries, whether it is spent to help establish a new 
electoral commission. Our simply calling for democratization, 
our simply criticizing human rights abuses when they occur 
without also engaging in a proactive and constructive effort to 
help these very poor and struggling countries to make progress 
I think is just cynical.
    In particular, these new leaders--and the reason I raise 
this is because I think they are uncertain about the United 
States. They are really uncertain about our commitment to 
democratization.
    We have a new Africa policy team. You heard from Dr. Susan 
Rice today. We have a new Africa policy emerging. There is the 
economic piece, the trade and investment initiative. There is 
the security piece, the African Crisis Response Force for 
training armed forces to deal with peacekeeping efforts. But 
when it comes to democratization, there is not necessarily a 
new initiative or a new framework that really clearly 
articulates what is U.S. democratization policy in Africa.
    Instead, what we have is a special envoy, the Reverend 
Jesse Jackson, who has had mixed reviews on his two trips. 
Fortunately, the second trip received much better reviews in 
terms of demonstrating a commitment to democratic forces in 
Africa.
    But his is a part-time assignment. I think the 
administration is beginning to try to articulate a more 
coherent democracy policy. Part of it is investing in 
elections. Part of it is investing in second wave activities, 
like strengthening independent institutions. But part of it has 
to remain in the traditional domain of public and private 
diplomacy and the application of pressure, particularly in 
egregious cases--for example, I would think like Nigeria.
    Senator Ashcroft. Dr. Gordon, did you have a comment?
    Dr. Gordon. Yes, Mr. Chairman.
    Let me say that I think the elections in Africa are going 
in both directions. I think both incumbents are learning a bit 
about electoral manipulation. But even in countries where 
elections are not perfect, you have very large turnout, you 
have a growing capacity of independent electoral commissions. 
The recent elections in Kenya, which were hardly perfect 
elections, showed an enormous effort by Kenyan civil society at 
electoral monitoring that I think is laying the basis for that 
country's transition to democracy.
    So I do not agree with the characterization of electoral 
processes in Africa as going in a negative direction.
    I did not mean to suggest for one moment that the evolution 
of Africa is going to be primarily determined by the United 
States nor that we should engage everywhere in Africa and have 
a blank check. Au contraire.
    I think that we cannot expect to find easy situations in 
which we face an environment that is one-sided. We are going to 
be dealing with grey areas. These hybrid regimes have elements 
of democracy and elements of authoritarianism. We have to be 
willing to engage in those kinds of circumstances, and, in 
particular, we have to look at whether a situation is improving 
or whether it is getting worse.
    I think we should be more selective in our distribution of 
foreign aid. I think that we should not give any African 
government a blank check on U.S. foreign aid. U.S. foreign aid 
should depend upon performance, both in terms of economic 
policy and in terms of good governance.
    But I do think that the United States has an enormous 
opportunity. It has enormous respect in Africa. Africans are 
looking at the United States as a model. They are looking at 
the United States for support. I think that our engagement in 
both democratization and economic reform in Africa in the 
1990's has had important results, even though we have not, 
frankly, spent a lot of money in doing it.
    Senator Ashcroft. Dr. Ayittey, I was very pleased to hear 
your focus on institutions rather than on individuals. It seems 
to me that even when we think we have democratic reform we have 
to wait for a transition to find out if we really have it.
    It occurs to me that the jury is still out on South Africa 
to see whether or not the transition can be made there 
successfully, although I think all of us are encouraged when we 
see things moving in the right direction.
    You mentioned the need for an independent judicial system, 
the need for a professional military, the need for elections, 
the need for a free press and a number of institutions. There 
is probably another one there that I do not recollect at the 
moment.
    Do you think our discussion has inordinately focused on 
elections to the detriment of these other institutions? Would 
you give us a few minutes, as we close this hearing, to relate 
these other institutions to the stability, and the 
democratization of these African Nations?
    Dr. Ayittey.  Thank you, Mr. Chairman. The reason why I 
focused on the institutions is because there is one fact which 
we must face. This is, number one, we must distinguish between 
African leaders and the African people. The two are not 
necessarily synonymous.
    There are many leaders in Africa who do not represent their 
people. I think Americans would be angry or would be resentful 
if they had somebody who was speaking on their behalf whom they 
did not choose.
    We have these cases in many African countries. Therefore, 
we must always distinguish between leaders and people.
    The second fact, point, which I like to make is that the 
U.S. cannot solve Africa's problems for Africa. Africans 
ultimately bear the responsibility of solving their own 
problems. The U.S. can help. But it cannot supplant the efforts 
Africans themselves are making.
    Now for us to be able to come to grips with our problems, 
we need to have an enforce in which we can freely speak and 
expose our problems, discuss our problems, and find solutions 
to them. For this, you need to have some basic freedoms--
freedom of expression, freedom of thought, freedom to publish. 
Therefore you need to have a free media.
    We have not had this in many parts of Africa in the post 
colonial period because the State has been monopolized by the 
State. We have very few independent newspapers.
    As a matter of fact, Nigeria is a typical example. If you 
publish something which an African Government does not like, 
pouf, you are dead. You need an independent judiciary also to 
enforce the rule of law. In many parts of Africa, what you have 
is lawlessness. You cannot invest in these countries because 
your property and even your personal safety cannot be 
guaranteed.
    We also talk about civil society. For civil society to 
work, we need to have certain basic freedoms--freedom of 
association, for example, and also freedom of expression. We 
don't have that.
    So when American officials talk about helping Africa, talk 
about civil so you, for example, they do not have a civil 
society in Africa in the past 30 years. American aid has not 
gone to the indigenous African organizations, we need civil 
society to help them do their jobs.
    If you take, let's say, the processes of elections, for 
example, in recent years of course we have had elections. But 
the rules were written by the incumbents. The electoral 
commission was chosen by the incumbent. The playing field was 
not level. Again, the State media only gave media coverage to 
the incumbent.
    The political playing field was not level. You could not 
protest against this or even take this matter to court because 
the judiciary was all in the government's pocket. Therefore, 
all that we are asking is for some basic minimum institutions.
    I have been to the World Bank. I have been to USAID. I have 
told the World Bank that look, you are in Africa trying to 
promote economic reform. You are trying to persuade African 
Governments to sell off State-owned enterprises. Well, the 
media is a State-owned enterprise and it ought to be the first 
critical institution to be placed on the auction block to be 
sold.
    If African governments will not sell off the media, if Moi 
will not sell off the media, the television and so forth, don't 
give him aid.
    I think we need to tie the U.S. aid to the establishment of 
these various institutions because they will help us Africans 
to look for and find solutions to our own problems.
    Senator Ashcroft. I thank you very much for those comments.
    I want to express my appreciation to all of the 
participants at the hearing today. We have held the hearing in 
the midst of votes in the Senate. Again, my presence is 
required on the Senate floor.
    Democracy is not too fragile to survive, in my judgment. 
Democracy is ultimately survivable. It is tyranny and 
oppression that have been responsible for violence and 
bloodshed in Africa and they continue to plague not only Africa 
but other parts of the world.
    When implemented prudently, I think democracy in Africa has 
been a stabilizing force that has eased social tension and has 
given disparate groups a voice in governance. But that has been 
all too infrequent.
    The potential of the new leaders may be promising. But I 
think each missed opportunity sends a chill up and down our 
spines and leads us to suspect that Africa is heading down the 
road of oppression from the past rather than the road of 
opportunity and progress of the future.
    I think we need to implement policies which encourage 
Africa to chart a course of genuine political and economic 
reform in the future.
    I want to indicate to you my gratitude for your 
participation in the hearing. You have offered, I think, to 
present more complete materials than the oral remarks you have 
made. The subcommittee record will remain open.
    If there are submissions, I would like to indicate that the 
record will remain open until March 19 at 5 p.m. If there are 
things that you did not get a chance to say in response to 
inquiries or you feel like we did not understand properly what 
you said or you need to repeat things which we may have missed, 
I would invite you to submit those.
    With that in mind, I appreciate your willingness to come 
and share your expertise with us. I am grateful for it. The 
subcommittee is now adjourned.
    [Whereupon, at 4 p.m., the hearing was adjourned, subject 
to the call of the Chair.]

                                    

                                  -      
</pre></body></html>
